<html>
<title> - AN INVESTIGATION INTO THE SILICA EXPOSURE OF YUCCA MOUNTAIN PROJECT WORKERS</title>
<body><pre>[Senate Hearing 108-785]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-785

  AN INVESTIGATION INTO THE SILICA EXPOSURE OF YUCCA MOUNTAIN PROJECT 
                                WORKERS

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     MARCH 15, 2004--LAS VEGAS, NV

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
94-729                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terence E. Sauvain, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                 PETE V. DOMENICI, New Mexico, Chairman
THAD COCHRAN, Mississippi            HARRY REID, Nevada
MITCH McCONNELL, Kentucky            ROBERT C. BYRD, West Virginia
ROBERT F. BENNETT, Utah              ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON L. DORGAN, North Dakota
CHRISTOPHER S. BOND, Missouri        DIANNE FEINSTEIN, California
TED STEVENS, Alaska (ex officio)

                           Professional Staff

                             Tammy Cameron
                             Scott O'Malia
                        Drew Willison (Minority)
                       Nancy Olkewicz (Minority)
                       Roger Cockrell (Minority)

                         Administrative Support
                              Erin McHale

                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Harry Reid..........................     1
Prepared Statement of Senator John Ensign........................     3
Statement of Gene B. Griego, Technician, Los Alamos National 
  Laboratories, Nevada...........................................     5
    Prepared Statement...........................................     7
DOE's Deadly Secret..............................................     8
``Blowing the Whistle''..........................................     8
Biographical Sketch of Gene B. Griego............................     9
Statement of Jeffrey M. Dean, Former Underground Worker, Yucca 
  Mountain.......................................................     9
    Prepared Statement...........................................    11
    Biographical Sketch..........................................    13
Statement of Michael Taylor, Environmental Safety and Health 
  Specialist, University of California Los Alamos National 
  Laboratory, Yucca Mountain Projects Test Coordination Office...    13
    Prepared Statement...........................................    16
Statement of Dr. James L. Weeks, Certified Industrial Hygienist, 
  Advanced Technologies and Laboratories International...........    17
    Prepared Statement...........................................    20
Silicosis Is Preventable.........................................    20
Silicosis........................................................    20
Silica...........................................................    20
Prevention.......................................................    21
Documented Exposure..............................................    23
Biographical Sketch of James L. Weeks, ScD, CIH..................    23
Statement of Dr. Nicholas J. Vogelzang, Director, Nevada Cancer 
  Institute......................................................    24
    Prepared Statement...........................................    26
Mesothelioma.....................................................    26
Erionite.........................................................    26
Erionite and Mesothelioma........................................    27
Biographical Sketch of Nicholas J. Vogelzang, M.D................    28
Statement of Gene E. Runkle, Senior Safety Advisor, Office of 
  Civilian Radioactive Waste Management..........................    29
    Prepared Statement...........................................    30
Background.......................................................    31
Silicosis Screening Program......................................    32
Future Operations................................................    33
Biographical Sketch of Gene E. Runkle............................    33

 
  AN INVESTIGATION INTO THE SILICA EXPOSURE OF YUCCA MOUNTAIN PROJECT 
                                WORKERS

                              ----------                              


                         MONDAY, MARCH 15, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                     Las Vegas, NV.
    The subcommittee met at 10 a.m., in Clark County Government 
Center, 500 S. Grand Central Parkway, Las Vegas, Nevada, Hon. 
Harry Reid presiding.
    Present: Senator Reid.


                OPENING STATEMENT OF SENATOR HARRY REID


    Senator Reid. When I first was approached by a large number 
of people from some of the largest corporations in America I 
had great sympathy for what they were trying to do. That was 
before I learned of the pain and suffering and death caused by 
asbestos to people, people who work in operations, for example, 
in Libby, Montana, who, one company, W.R. Grace, who was making 
billions of dollars at the time, billions of dollars net, were 
unwilling to spend $100,000 to create a safe house for people 
to work in, even though they knew that asbestos caused 
problems.
    And not only have we learned that the people who worked in 
the operation itself have been made sick or are dead, but we've 
learned that their children and wives and neighbors are dead 
and dying as a result of bringing this stuff home in their 
clothes. And when I was preparing for this hearing, I was 
struck by the same thing. There are two books I would recommend 
to everyone. One of them's called ``Libby, Montana'', a brand 
new book. And the other is a book called ``Fatal Deception'', 
which tells the story of asbestos and what it's done to 
hundreds of thousands of people in America, some of whom are 
just learning that they're getting sick. They're getting sick 
because they washed their husbands' clothes, because they came 
and hugged their dad when he came home from work.
    When I read the stuff here today about what happened at 
Yucca Mountain, it's the same thing, same thing, same thing as 
asbestos. The Department of Energy and the companies knew that 
the hole they were digging in the ground created dust, 
silicosis. Now I'm not sure they knew about the substance 
that's worse than asbestos, zeolite or whatever it's called. 
We'll learn about that today. But if they didn't now, they 
should have known.
    And they went grinding right through that mountain 5 miles. 
They didn't even think of doing anything for the safety of 
those people until they were 3 miles into that mountain. I can 
remember as a boy going into the mines with my dad and 
sometimes he would have to do what is called dry drilling, 
where he would pick up that jackhammer and stick it into the 
side of that hole, and dust flying all over because if 
something was on they couldn't get water down the hole at the 
time. And he knew, because people around there in Searchlight 
got sick from silicosis, and he knew that if you drilled with 
water coming into and the dust wasn't spewing it, chances are 
he wouldn't get sick. Well, my dad got silicosis.
    Up in the mountain at Yucca Mountain they could have used 
water, they could have cut down the dust. We're going to have 
testimony here today of one witness who, when he finished 
working would take his clothes and get all the dirt out of the 
cuffs and did everything he could to get the dust out of his 
clothes. He would take them home and his wife complained so 
much about how much dirt was in his washer that he started 
taking them to the laundromat. That didn't last long. The 
manager of the laundromat said you're plugging up my washers, 
we don't want you washing here anymore. It got so bad that they 
started supplying the workers with their own coveralls, their 
own clothes.
    So I just can't--I can't imagine what we have here. We 
don't know how many people--we know how many people have been 
exposed, thousands have been exposed who work in the tunnels, 
in the tunnel, thousands. But we don't know how many are going 
to get sick. It's just like some people who smoke they don't 
get sick, some do.
    Margaret Chu, who is one of the big shots at the Department 
of Energy, she's in charge of this project, Yucca Mountain. 
Among other things, she said in a letter that I wrote to her in 
January, she said, the Department of Energy was aware of the 
presence of silica in the mountain strata. The Department also 
was aware of the potential for the silica to become airborne 
during mining operations. Dust masks were provided to workers 
to protect them from potential exposures to respirable silica 
during these early operations, but their use was not mandatory. 
That's an understatement. This is the woman that runs the 
program.
    You know, the sad part about it, there's no price that 
anyone can put on the health of just one of these sick miners, 
scientists, or other workers. It wasn't just the miners.
    The contractor was given bonuses for how fast they could 
go. The more dust, the more money they made. So this is the 
proverbial horse is already out of the barn, what can we do 
about it. But I hope everyone recognizes the legacy of the 
Department of Energy in this project. If they have no regard 
for the people that work in that tunnel, what regard are they 
going to have for the millions of people who are going to be 
exposed to this product around the highways and railways of 
this country? None, as they had no concern for the people out 
there. Their job was to get this hole dug so these big 
utilities, these multibillion dollar utilities would have a 
place to dump their garbage.
    The Department of Energy is in a conspiracy with the big 
utilities to get this project done and it doesn't matter how 
much it costs and it doesn't matter how many people are made 
sick or caused to die as a result of it. That's a fact. And 
people think that the Nevada delegation is shrill. Why do we 
complain about this? Why don't we try to make a deal with 
people out there? Why don't we try and make a deal, see what we 
can get for it? Well, you don't do deals with the devil.
    I would also say that we've had some very courageous people 
to, in effect, blow the whistle on what's going on out there. 
We would not have known but for some of the people that are 
here today, put their jobs in jeopardy to speak up. Had they 
not done that, how would we have known?
    So we're going to proceed with the hearing here today. This 
testimony that's taken will be returned to Washington and we'll 
see what we can do to come up something to try to help these 
injured people. I'm not sure that government is the right place 
for them to go now. I think they may have to go some place that 
we hear so many bad things about. They may have to go see a 
lawyer, go after these people who in my opinion if they didn't 
do criminal acts, it was close to it. But I'm standing by if we 
need to do something governmental, we will do that also.
    We're going to hear today from Gene Griego, who is an 
underground worker contracted to Yucca Mountain from Los Alamos 
National Laboratories. We're going to hear from Jeffrey Dean, 
former underground worker on tunnel-boring machine at Yucca 
Mountain. He's now with Bechtel Nevada, the test site. Michael 
Taylor, current underground worker and environmental safety and 
health specialist, Yucca Mountain projects test coordination 
office, and we really do appreciate his stepping forward. It's 
interesting to note that his dad and I--I used to work for his 
dad in a service station, Charlie Taylor, Fifth and Fremont, 
among other places.
    Dr. Jim Weeks, certified industrial hygienist at Advanced 
Technologies and Laboratories International; Dr. Nicholas 
Vogelzang, who is director of Nevada Cancer Institute, who 
isn't here but he will be here. We're so fortunate--oh, he is 
here, I'll be darned. Glad to have you here. We are very 
fortunate to have Dr. Vogelzang in Nevada. He comes with--his 
resume is--I was going over my work last night and I read to my 
wife the number of papers you've published, the books you've 
written, the chapters in books you've written, it's very 
impressive. And he came--he's here from the University of 
Chicago to work in our world-class cancer institute here in Las 
Vegas.


               PREPARED STATEMENT OF SENATOR JOHN ENSIGN


    And then we're going to hear from Gene Runkle, Senior 
Safety Advisor to the Director of the Office of Civilian 
Radioactive Waste Management. We appreciate everyone being here 
and look forward to hearing your testimony. We're going to have 
all the witnesses testify and then I'm going to ask on behalf 
of the panel questions.
    Senator Ensign has also prepared a statement to be inserted 
for the record.
    [The statement follows:]

               Prepared Statement of Senator John Ensign

    Senator Reid, thank you very much for holding a hearing on the 
silicosis problem at Yucca Mountain, Nevada. I would also like to thank 
the witnesses for being here to testify on this important matter. I 
apologize for not being able to attend in person.
    During my time in both the U.S. House of Representative and the 
Senate, I have worked hard with Senator Reid to fight nuclear waste 
coming to Yucca Mountain. On many occasions, Senator Reid and I tried 
to convince Congress that Yucca Mountain wasn't, and still isn't, 
suitable for a number of reasons. Unfortunately, this lesson to the 
rest of the world is coming at the expense of innocent lives.
    Silicosis, a respiratory disease caused by breathing in silica dust 
over a period of time, is deadly. A person can develop silicosis with 
less than a year's worth of exposure to this agent. However, one of the 
problems with this disease is that it acts like a time bomb, sometimes 
not exhibiting any major symptoms for 5, 10, or even 15 years. This 
means that men and women who worked at Yucca Mountain as early as the 
1980's may only now be exhibiting the symptoms of a disease that could 
eventually lead to their deaths.
    My grandfather suffered for years with lung disease caused by 
inhaling small particles in sanding shop. In those days, people were 
ignorant of the risks and how to prevent the problems. He spent the 
last several years of his life attached to an oxygen machine. We know 
better today, that if laws followed, suffering like what my grandfather 
went through should be preventable.
    Nationwide, the number of cases of silicosis has declined with the 
strengthening of Occupational Safety and Health Administration's (OSHA) 
guidelines when it comes to workers being exposed to silica. However, 
the levels of silica, erionite, and other toxic dusts these workers at 
Yucca Mountain were exposed to were more than just illegal--they were 
potentially deadly.
    Perhaps what is the most disturbing aspect of this situation deals 
with the fact that the Department of Energy (DOE) had every chance to 
prevent the spread of silicosis before anyone was ever exposed to it. 
Instead, this lawsuit alleges that DOE contractors doctored air 
monitoring data in order to deceive workers and visitors about their 
level of safety. With these inaccurate results, the DOE's contractors 
were able to get around the OSHA requirements for protective clothing, 
respiratory protection, and other preventive measures.
    So, for miles these workers continued to drill and dig their way 
through the tunnels of volcanic rock that could become America's 
dumping ground for high-level nuclear waste. With each breath these 
workers took, they were inhaling some of the carcinogens that would 
make them sick years later. If found to be true, this action by the DOE 
is not only inexcusable but also reprehensible, and the DOE's 
contractors should own up to their actions.
    Last month, the DOE apologized to the former workers, letting them 
know that they would offer free silicosis screening and notified them 
that the Inspector General has started investigating these allegations. 
If these allegations are found to have merit, I support Senator Reid in 
pursuing a criminal investigation into this matter. We, as lawmakers 
and as citizens, need to make sure that the welfare and safety of 
Nevadans is protected, and that a situation like this does not ever 
happen again.
    As I said before, I have never been in support of Yucca Mountain 
becoming a high-level nuclear waste repository. Time after time again, 
studies have shown that Yucca Mountain is geologically unstable. With 
Yucca being the most expensive government project ever undertaken, I 
also firmly believe that Yucca is fiscally irresponsible. Now, with 
former and current workers falling ill to silicosis, Yucca has already 
become a health risk to otherwise healthy Nevadans.
    In the class action complaint filed in Clark County's District 
Court by Gene Greigo and others, it states that, with adequate warning, 
``The workers and visitors so impacted would have refused to enter, 
much less work in, the tunnels at Yucca Mountain without at least 
adequate respiratory protection and protective clothing had defendants 
disclosed the facts to them.'' Unfortunately, this does not appear to 
be the case. The contractors that the DOE hired never gave these 
workers and visitors the option to protect themselves against these 
harmful airborne agents.
    The DOE contends that Yucca Mountain is one of the most thoroughly 
researched areas of the world, and the DOE's contractors have spent 
billions of dollars in studying every aspect of this site. What is sad 
is that the DOE seemed to have let at least one thing slip under the 
radar--the very health and protection of those who were helping to dig 
its tunnels, despite a strong understanding by the DOE that Yucca 
Mountain contained volcanic rock with the silica and other deadly 
inhalants. As a lawmaker, this fact makes me wonder what else may have 
gone unnoticed or unchecked at this site.
    The fight against Yucca Mountain is not over on many fronts for 
Senator Reid and me. For those who are testifying today, I am sorry 
that so many of you have to suffer because of the apparent oversights 
of a few. I wish you the best of luck with your legal endeavors on this 
issue, and my thoughts and prayers are with you and your families.
    Senator Reid. We'll proceed first with Gene Griego.

STATEMENT OF GENE B. GRIEGO, TECHNICIAN, LOS ALAMOS 
            NATIONAL LABORATORIES, NEVADA
    Mr. Griego. My name is Gene Griego and I'm employed as a 
technician with Los Alamos National Labs at the Nevada test 
site. I've been employed by Los Alamos since April of 1991. In 
June of 1993 I was assigned to the Yucca Mountain project. I 
was attached to the earth and environmental systems group, 
their team, working out of the test coordination office. The 
test coordination office is responsible for all of the 
scientific experimentation at Yucca Mountain.
    My primary duties were to provide constructive support to 
all the scientists doing various experiments on the project. We 
also monitored and supported the geological mapping of the 
tunnel walls right behind the tunnel-boring machine. Our work 
schedule consisted of a 24-hour, 5-day-a-week schedule. Due to 
manpower shortages in the test coordination office, we were 
required to work 16-hour shifts once a week.
    Initially, the tunnel-boring machine, which began tunneling 
operations roughly in November of 1994 right away generated 
large amounts of dust. At this time, the tunnel-boring machine 
advanced about 30 feet a day. That was due to the constructor 
having to use mud cars to haul out the debris.
    In June of--let me back up a bit about the dust hazard. 
What increased the dust hazard at Yucca Mountain was that water 
for dust control was limited because project scientists were 
concerned that their experiments would be compromised if there 
was unlimited water use.
    In July of 1995, the conveyor belt system became fully 
operational. At this time, tunneling increased to between 100 
feet and 150 feet per day. That's five times the dust hazard 
you had before. At this time also, they distributed painter's 
masks as respiratory protection, because people were 
complaining about the dust.
    Finally, in August of 1996, a respiratory program was 
implemented. By that time, like Senator Reid mentioned, we were 
over 3 miles underground. During my physical to determine 
whether I could wear a respirator, my pulmonary function test 
indicated a lung function decline. During subsequent yearly 
physicals, my lung capacity continued to decline. In 2002 it 
was measured at 63 percent.
    The attending physician then advised me to see a 
pulmonologist, and several months later I did see one. The 
pulmonologist diagnosed me with chronic obstructive pulmonary 
disease.
    In August 2002, I was reassigned to the DX4 engineering 
group at the underground U1A complex conducting subcritical 
experiments. In November of 2002, I was doing some research on 
silica as a hazard analysis, and I came across a Los Alamos 
report titled, ``Distribution of Hazardous Phases in the 
Subsurface of Yucca Mountain.'' I would like to enter this 
report into the record if I may.
    Senator Reid. That will be the order.
    [Clerk's Note.--The document referred to has been retained 
in Committee files.]
    Mr. Griego. This report listed all the carcinogenic 
substances that had been found in Yucca Mountain since the mid-
1980's. Along with silica, this reported also their 
carcinogenic ranking according to the International Agency for 
Cancer Research. Along with the silica, there was a mineral 
fiber also found at Yucca Mountain called erionite. Doing 
further research, I discovered that erionite is considered many 
times more carcinogenic than asbestos.
    To give you an example of one of the studies, 40 rats were 
exposed to asbestos and 40 rats were exposed to erionite. 
Nineteen of the 40 rats exposed to asbestos developed tumors. 
The 40 rats exposed to erionite died within a year. Pardon me.
    Senator Reid. Take your time.
    Mr. Griego. The following 3 months I discovered--just give 
me a minute--in the following 3 months I discovered more DOE 
and LANL reports that conclusively proved that DOE and its 
contractors had intentionally exposed their workers and the 
public to extremely hazardous substances in violation of the 
Hazard Communications Act and the Toxic Substance Control Act.
    There was also industrial hygienists on the project that 
tried to sound the alarm before mining began and after. These 
reports were published many years before mining actually began 
and some shortly after mining began. Obviously DOE and its 
contractors ignored these reports, probably all in the name of 
meeting their milestones and, of course, collecting their hefty 
bonuses.
    I hope out of our meeting today that DOE and its 
contractors are held accountable for their actions. In February 
of 2003, I called the University of California hotline and 
filed a complaint. A Mr. Patrick Reed took my allegations and 
said somebody would contact me shortly. Two months went by, 
nobody had called me, so I e-mailed Mr. Patrick Reed again and 
he replied that they were backlogged with claims and that I 
should make a claim through the audits and assessments of Los 
Alamos.
    During this time, Los Alamos was going through the credit 
card scandal and I didn't have much faith that LANL management 
would conduct an honest investigation. But I set my 
reservations aside and I did file a claim through audits and 
assessments, gave them all my reports. I also gave them a list 
of about 30 witnesses they could interview. Mike Taylor was on 
that list.
    Three months went by and audits and assessments called me 
and said that if OCRWM wasn't cooperating--OCRWM is the Office 
of Civilian Radioactive Waste Management--that I should file a 
claim through the OCRWM concerns program. And these 3 months 
that Los Alamos had my claim, they did not send anyone out to 
Nevada to investigate.
    In early July of 2003, I filed a complaint with the OCRWM 
concerns program. Jack Gallagher with Inspection and 
Consultants, National Inspection and Consultants, an 
investigative firm out of Ft. Myers, Florida, conducted the 
initial interview with me, and at the time I gave him copies of 
all the reports I'd found and the witness list. A Nancy 
Cunningham was assigned to investigate the case.
    On July 25, 2003, I attended a meeting with Greg Morgan, 
the OCRWM concerns program manager, and Nancy Cunningham. In 
this meeting, Mr. Morgan stated that he had found some good 
things and not-so-good things about the industrial hygiene 
practices of his contractors. I then asked him if he was going 
to hold his managers accountable for the not-so-good things, 
since most of them were still on the project.
    He then said that he wasn't about to slap his managers on 
the wrist for past discretions. I then said that I expected a 
little more than a slap on the wrist for the criminal behavior 
of his managers. I then asked him to see a copy of the report 
that Nancy Cunningham had submitted, and he told me that it 
wasn't for public consumption.
    At that point, I told him he was wasting my time and I got 
up to leave. As I left his office he handed me a letter, and in 
this letter he stated that OCRWM had done nothing wrong, that 
they had given us respirators and that we chose not to use them 
and that I should seek medical attention from my personal 
provider.
    About a week after this meeting with Mr. Morgan, I filed a 
complaint with the DOE Inspector General's office. For the 
following 6 months, OCRWM asked for extension after extension, 
and to this day, has not filed a report with the IG office 
about this matter.
    In January of 2004, DOE publicly admitted that they had 
exposed their workers to high silica dust levels and that they 
were instituting a silica screening program. John Arthur, the 
deputy project manager--or actually I guess he's the project 
manager of OCRWM--called me to thank me for bringing this 
matter to DOE's attention.
    During our conversation, I asked him if he was going to 
hold his managers accountable, and he said he would look into 
the matter and get back to me. Two weeks later, I get a letter 
from him in the mail and he states that OCRWM had done nothing 
wrong, we had been given respirators, et cetera, et cetera. At 
that point, I felt I had no other option but to contact the 
media.

                           PREPARED STATEMENT

    Before I give up the podium, I'd like to thank Steve 
Tetralt, Keith Rogers of the Review Journal, and John Huck of 
TV5 News for giving me the opportunity to tell my story. Also 
I'd like to thank Mike Taylor for being here today and Jeff 
Dean for standing up with me. Thank you.
    [The statement and information follow:]

                  Prepared Statement of Gene B. Griego

                              INTRODUCTION

    I am Gene B. Griego and I have been employed by Los Alamos National 
Labs as a Technician since April of 1991. I was temporarily assigned to 
the Yucca Mountain Project as a Field Test Representative in June of 
1993 attached to the Scientific Test Coordination Office in the Earth 
and Environmental Sciences-13 group. The LANL Test Coordination Office 
was responsible for all scientific activities conducted at YMP. The 
FTR's duties were to provide any constructor support that the 
scientists would require to complete their experiments. We also 
monitored and supported the Geological Mapping of the tunnel walls 
behind the Tunnel Boring Machine. It was a 24-hour 5-days-a-week 
operation. We worked rotating shifts and due to manpower shortages in 
the Test Coordination Office and were required to work a 16-hour shift 
once a week. From the start of tunneling operations in November of 1994 
high levels of silica dust were generated by the Tunnel Boring Machine. 
The dust problem was worsened by the fact that water for dust control 
was limited because project scientists were concerned that their 
experiments would be compromised by unlimited water use. Initially 
tunneling progress was about 30 ft. per day due to having to use muck 
cars to haul out the debris. In July of 1995 the conveyor system became 
operational and tunneling progress increased to between 100 ft. and 150 
ft. per day. At this point ``painters masks'' were made available to 
personnel for respiratory protection. Finally in August of 1996 after 
many complaints about the dust levels in the tunnel, primarily by 
scientific personnel, a proper respiratory protection program was 
installed. At this time the TBM was over 3 miles underground. In 1996 
during my physical to determine my fitness to wear respiratory 
protection my ``pulmonary function test'' measured a decline in my lung 
capacity. My lung capacity continued to steadily decline during 
subsequent yearly physicals. In 2002 my lung capacity was measured at 
63 percent and I was informed that I had the lung capacity of an 80-
year-old man. I was 50 years old at the time. The attending physician 
recommended that I see a pulmonologist and a few months later I did. My 
pulmonologist diagnosed me with Chronic Obstructive Pulmonary Disease. 
Since I am a life-long non-smoker and no one in my immediate family 
smokes it was a mystery as to what had caused my condition.

                          DOE'S DEADLY SECRET

    In August 2002 I was reassigned to my parent group DX-4 in support 
of Sub-Critical Experiments at the U1A complex. In the course of 
conducting a hazard analysis of ``Silica'' in November of 2002. I 
stumbled upon a report on the ``DOE Information Bridge'' website titled 
``Distribution of Potentially Hazardous Phases in the Subsurface at 
Yucca Mountain'' This LANL report listed all the hazardous substances 
that had been found at YMP and their toxicity. I also discovered that I 
had six out of the eight symptoms of ``Silicosis''. During the next 3 
months I found more DOE and LANL reports that conclusively proved that 
DOE and LANL managers had intentionally exposed workers and the public 
to extremely carcinogenic substances without informing them of the 
danger in violation of the ``Hazard Communications Act'' and the 
``Toxic Substance Control Act''. DOE and LANL also ignored health and 
safety reports that were published years before mining operations 
began. These reports urged them to protect their personnel from these 
hazardous substances. Industrial Hygiene professionals who tried to 
sound the alarm before and after tunneling began were systematically 
terminated or silenced with threats of termination. Some apparently 
falsified monitoring data in order to keep their jobs. DOE has injured 
over a 1,000 people just to meet their milestones and of course to 
collect their hefty bonuses. They must be held accountable for their 
actions.

                        ``BLOWING THE WHISTLE''

    In February of 2003 I called the UC ``Whistle-Blower'' hot line and 
was told to contact Patrick Reed. I e-mailed Mr. Reed with my 
allegations and he said someone from UC would contact me shortly. Two 
months went by without anyone from UC contacting me. Again I e-mailed 
Mr. Reed and he responded that they were backlogged with claims and 
that I should contact the LANL ``Audits and Assessments'' group. This 
was about the time of the credit card scandal at Los Alamos. That was 
the reason I had called the UC hot line initially because I didn't have 
much faith in LANL's management to conduct an honest investigation. But 
I called them anyway and sent them the DOE and LANL reports I had 
uncovered and a list of 30 witnesses they could interview. After 3 
months they suggested that I file a claim through the Office of 
Civilian Radioactive Waste Management Concerns Program. No one from 
LANL or UC ever came out to Nevada to conduct an investigation. I filed 
a claim with OCRWM in early July of 2003, Jack Gallagher from National 
Inspection & Consultants of Fort Myers Florida conducted the initial 
interview at which time he photocopied all the reports I had uncovered. 
Nancy Cunningham was assigned the case and conducted the investigation.
    I attended a meeting on July 25 in Summerlin with Greg Morgan, 
OCRWM Concerns Program Manager, and Nancy Cunningham to discuss the 
results of the investigation. Mr. Morgan declared that the 
investigation had uncovered some good things and not-so-good things 
about the Industrial Hygiene practices of his contractors during 
tunneling operations. I asked him if he was going to hold his managers 
accountable for the not-so-good things since most of them were still on 
the project. He said that he was not going to slap his managers on the 
wrist for past discretions. I replied that I expected a little more 
than a slap on the wrist for the criminal negligence of his managers. I 
then asked him if I could see the report that Nancy Cunningham had 
submitted and he said that the report was not for public consumption. 
At that point I stated that he was wasting my time and I walked out of 
his office he handed me a letter as I walked out. The letter basically 
said that OCRWM had done nothing wrong and I should seek medical 
attention from my personal provider. A week later I called the DOE 
Inspector General hotline and filed another claim. I also called LANL 
Audits and asked the status of my complaint. They said it was closed 
and I then requested a report from them and all they sent me a copy of 
the OCRWM letter I had received from Greg Morgan on July 25. In the 
ensuing months OCRWM kept asking the IG for extension after extension 
and to this day has not submitted a report to the IG.
    January of 2004 DOE admitted in a news release that they had 
exposed their personnel to high levels of silica dust and have 
implemented a silicosis screening program for former and current YMP 
workers. John Arthur, OCRWM Deputy Project Managers, called me to thank 
me for my perseverance in bringing this matter to DOE's attention. 
During our conversation I asked him if he was going to hold his 
managers accountable and he said he would look into the matter. Two 
weeks later I received a letter from him stating that after pouring 
over 400 reports he has concluded that OCRWM has not done anything 
wrong and that respirators had been provided. At this point I felt I 
had no other option other than contacting the media.

                                 ______
                                 
                 Biographical Sketch of Gene B. Griego

    Gene moved with his family to Las Vegas in 1981 and was employed as 
a technician with EG&G Energy Measurements at the Nevada Test Site 
until 1991. He was primarily involved in assembling and fielding 
diagnostic cannisters used in nuclear tests. In 1991 he went to work 
for Los Alamos National Labs (LANL) performing the same functions. In 
1992 the nuclear testing moratorium went into effect, and his group was 
transferred back to Los Alamos in New Mexico. In June of 1993 he was 
temporarily assigned to the LANL EES-13 Group in the Yucca Mountain 
Project's Test Coordination Office. Their job was to provide support 
for all scientific experiments on the project. He participated in all 
mining and tunneling activities up until August of 2002 when his group 
finally pulled him back to the weapons side of the Nevada Test Site.

    Senator Reid. Mr. Griego, thank you very much for your 
testimony, and we all recognize how difficult it is, but we 
appreciate it very much. We'll now hear from Jeffrey Dean. And 
what's going to happen, we're going to hear from all the 
witnesses, then I'll ask questions.

STATEMENT OF JEFFREY M. DEAN, FORMER UNDERGROUND 
            WORKER, YUCCA MOUNTAIN
    Mr. Dean. Hello, Senator. This has had a tremendous effect 
on all of our lives. Gene was the first, to my knowledge, the 
first person to bring attention to this, and it's been kind of 
a long road for me. I have a lung disease and I never really 
had made a connection until recently it possibly could be 
related to my work at Yucca Mountain.
    Senator Reid. What is your lung disease?
    Mr. Dean. Excuse me?
    Senator Reid. What is your lung disease?
    Mr. Dean. I have pneumoconiosis and possibly--probable 
silicosis, possibly sarcoidosis. This is through the workers' 
comp. Additionally, I went to California for outside 
consultation and my doctor in California said that I have 
pneumoconiosis secondary to silicosis. And I had wrote this 
letter for my--actually it's my testimony from a worker's 
perspective, something that I threw together a few nights ago, 
and it will tell the story of my involvement with the tunnel.
    Senator Reid. Please read that.
    Mr. Dean. My name is Jeff Dean. I was involved with the 
tunneling and drilling operations at Yucca Mountain. I was 
hired as an underground conveyor operator June 26, 1995, by 
Parsons Brinckerhoff to support the tunnel-boring machine. I 
also worked in various other capacities as needed, such as 
driller and equipment operator. My union affiliation is 
Operating Engineers.
    Prior to Yucca Mountain, I worked at the Nevada test site 
for over 12 years as a surface driller supporting the nuclear 
testing program. I am currently working for Bechtel Nevada at 
the test site as a driller.
    In March 2003, I had an abnormal chest X-ray during a 
medical screening program offered through my employer. 
Additionally, I had been suffering from shortness of breath. 
These findings prompted an extensive medical evaluation and 
work-up. My doctor stated in a letter to the Department of 
Labor that I have clear evidence of pneumoconiosis secondary to 
silicosis. I am also being evaluated for possible sarcoidosis, 
a rare lung disease of unknown origin.
    I am currently being followed by frequent CAT scanning of 
the lungs along with pulmonary functions testing. After careful 
review of my work history, I believe that the bulk of my dust 
exposures came from my involvement on the Yucca Mountain 
project. I do not believe I was adequately protected from the 
respiratory hazards that were present during the early 
tunneling and drilling operations. There were many concerns 
raised about the dust levels, although I personally trusted 
that the DOE would shut us down if we exceeded the permissible 
exposure limits.
    As construction craft workers, the majority of us have very 
little, if any, knowledge of the potential adverse health 
effects related to this type of work, specifically dust 
illnesses. Employers are normally responsible for a safe work 
environment and our job as workers was to construct the tunnel. 
We left the air monitoring and sampling to the health and 
safety professionals. I never had any reason to doubt or 
question this process until recently. This was my first tunnel 
job, as I had no previous underground experience and nothing to 
compare this job or these conditions with.
    Looking back, I can still remember working in the Yucca 
Mountain tunnel, which was extremely dusty at times. The 
ventilation system had numerous leaks, muck would be falling 
off the conveyor belt along the tunnel. Each time a locomotive 
or other equipment would pass by, this would stir up more dust 
along with the high pressure air operations within the tunnel. 
It was impossible to eliminate the dusty environment that this 
work created, considering the existing conditions and limited 
use of water.
    We normally worked through lunch without stopping, so it 
was common to see the miners eating their lunches on the 
tunnel-boring machine while working simultaneously. At the end 
of the shift, I would be so covered in dust that I would go 
outside and empty my pockets, which were usually full of dirt. 
I would sometimes blow the dust off my clothing using an air 
hose. After changing into my street clothes, I would again 
shake out my dirty clothes before putting them in the duffel 
bag, which I took home at the end of each work week for 
laundering.
    My wife would complain about all the dirt, dust, and 
sometimes grease. She didn't like me bringing my work clothes 
into our house, so I started washing them myself at the 
laundromat until the manager noticed all the dirt and asked me 
not to come back.
    It was soon thereafter when were issued the Yucca Mountain 
uniforms. The shirt had a name tag and the YMP logo patch. We 
thought this was provided to give us the professional look to 
show us off during the frequent YMP tours, although none of us 
union workers had ever been issued work clothes before. I 
certainly didn't make the connection at the time, we were just 
happy to have uniforms provided and not having to carry our 
work clothes home to wash.
    There was also a dust cloud that hovered outside during 
heavy mining outside the portal where the tunnel exhaust was 
dispersed and around the muck pile at the end of the conveyor 
system. Sometimes there was so much muck coming off the belt 
that the outside mucker operators couldn't move the material 
fast enough, causing a back-up of the drill cuttings and 
plugging the conveyor system.
    This problem was remedied by the installation of the radial 
stacker, allowing the conveyor system to run at full speed. I 
believe the dust levels were higher on the back shifts, swing 
and graveyard. These were the shifts that made the most footage 
and generated the most dust. Day shift was often shut down for 
TBM maintenance. This was also the shift that normally hosted 
the Yucca Mountain tours. It was standard procedure to suspend 
tunnel activities and allow the dust to clear prior to the tour 
or when dignitaries would visit.
    It is my opinion that the general attitude amongst the 
tunnel supervisors was focused on production. If you brought up 
an issue such as dust, you weren't considered a team player. 
These were the people who transferred off the program back to 
the union hall or unemployment line for many of them. 
Respirators would slow down production and everybody knew of 
the tremendous pressure the DOE was faced with. I know this is 
only speculation, but many workers were beginning to get 
concerned. I was laid off in October 1998, along with most of 
the swing shift crew due to lack of work. I went on to work at 
the Lake Mead intake two project in Boulder City, Nevada.

                           PREPARED STATEMENT

    In closing words, I would like to bring some attention to 
the surface drillers involved with the dry drilling at Yucca 
Mountain. DOE had an extensive drilling program in place long 
before the tunnel was even started. I participated in some of 
the surface work and am familiar with the drilling procedures 
and dry drilling techniques used. This work produced 
significant dust exposures to some of these workers and 
respiratory protection was not provided at that time. I would 
like to see these former workers offered the same silicosis 
screening program as currently being offered to the underground 
tunnel workers, as they may also be at risk from their job 
duties at Yucca Mountain.
    Thank you for allowing me to participate in your 
investigation and sharing my experiences from a worker's 
perspective.
    [The statement follows:]

                 Prepared Statement of Jeffrey M. Dean

    My name is Jeffrey M. Dean. I was involved with the Tunneling & 
Drilling Operations at Yucca Mountain. I was hired as an Underground 
Conveyor Operator on June 26, 1995 by Kiewit/PB to support the Tunnel 
Boring Machine (TBM). I also worked in various other capacities as 
needed (such as Driller and Equipment Operator). My union affiliation 
is Operating Engineers.
    Prior to the Yucca Mountain Project (YMP), I worked at the Nevada 
Test Site (NTS) for over 12 years as a Surface Driller supporting the 
Nuclear Testing Program. I am currently working for Bechtel Nevada at 
the NTS as a Driller.
    In March 2003 I had an abnormal Chest X-ray during a medical 
screening program offered through my employer. Additionally, I had been 
suffering from shortness of breath. These findings prompted an 
extensive medical evaluation and work-up. My doctor stated in his 
letter to the Department of Labor that I have clear evidence of 
Pneumoconiosis secondary to Silicosis. I am also being evaluated for 
possible Sarcodiosis (a rare lung disease of unknown etiology). I am 
currently being followed by frequent CT Scanning of the lungs along 
with Pulmonary Functions Testing.
    After careful review of my work history, I believe that the bulk of 
my dust exposures came from my involvement on the Yucca Mountain 
Project. I do not believe I was adequately protected from the 
respiratory hazards that were present during the early Tunneling & 
Drilling Operations. There were many concerns raised about the dust 
levels (although I personally trusted that the DOE would shut us down 
if we exceeded the permissible exposure limits).
    As Construction (Craft) Workers, the majority of us had very little 
(if any) knowledge of the potential adverse health effects relating to 
this type of work, specifically dust illnesses. The employer is 
normally responsible for providing a safe work environment, and our job 
(as workers) was to produce a tunnel. We left the air-monitoring and 
sampling to the Health & Safety professionals. I never had any reason 
to doubt or question this process until recently. This was my first 
tunnel job, as I had no previous underground experience and nothing to 
compare this job or these conditions with.
    Looking back I can still remember working in the Yucca Mountain 
tunnel (which was extremely dusty at times). The ventilation system had 
numerous leaks, muck would be falling off the conveyor belt along the 
tunnel, each time a locomotive or other equipment would pass by, this 
would stir up more dust along with the high pressure air operations 
within the tunnel. It was impossible to eliminate the dusty environment 
that this work created considering the existing conditions and limited 
use of water. We normally worked through lunch without stopping, so it 
was common to see the miners eating their lunches on the Tunnel Boring 
Machine (TBM) while working simultaneously.
    At the end of the shift, I would be so covered in dust that I would 
go outside and empty my pockets (which were usually full of dirt). I 
would sometimes blow the dust off of my clothing using an air hose. 
After changing into my street clothes, I would again shake out my work 
clothes before putting them into my duffle bag (which I took home at 
the end of each work week for laundering). My wife would complain about 
all the dirt (dust and sometimes grease). She didn't like me bringing 
my work clothes into our house, so I started washing them myself at the 
laundromat, until the manager noticed all the dirt and asked me not to 
come back.
    It was soon thereafter when we were issued the YMP Uniforms. The 
shirt had a name tag and the YMP logo patch. We thought this was 
provided to give us the ``professional look'' (to show us off during 
the frequent YMP tours), although none of us union workers had ever 
been issued work clothes before. I certainly didn't make the connection 
at the time (we were just happy to have the uniforms provided, and not 
having to carry our work clothes home to wash).
    There was also a dust cloud that hovered outside over the 
Exploratory Studies Facility (ESF) Pad (during heavy mining): outside 
the portal where the tunnel exhaust was dispersed and around the muck 
pile (at the end of the conveyor belts drop point). Sometimes there was 
so much muck coming off the belt that the outside mucker operators 
couldn't move the material fast enough, causing a back-up of drill 
cuttings and plugging the hopper. This problem was remedied by the 
installation of the Radial Stacker (allowing the conveyor system to run 
at full speed).
    I believe the dust levels were higher on the back shifts (Swing & 
Grave). These were the shifts that made the most footage and generated 
the most dust. Day Shift was often shut down for TBM maintenance. This 
was also the shift that normally hosted the YMP Tours. It was standard 
procedure to suspend tunnel activities and allow the dust to clear 
prior to the tour or when dignitaries would visit. It is my opinion 
that the general attitude amongst the tunnel supervisors (including 
Walkers and some Shifters) was focused on production. If you brought up 
an issue (such as dust), you weren't considered a team player. These 
were the people who transferred off the project (back to the Union Hall 
or Unemployment Line for many of them). Respirators would slow down 
Production, and everybody knew of the tremendous pressure the DOE was 
faced with. I know this is only speculation but many workers were 
starting to get concerned.
    I was laid off on Oct. 13, 1998 (along with most of the swing shift 
crew), due to Lack of Work. I went on to work for Kiewit at the Lake 
Mead Intake II Project in Boulder City, Nevada.
    In closing words I would like to bring some attention to the 
Surface Drillers involved with the ``Dry'' Drilling at Yucca Mountain. 
DOE had an extensive drilling program in place long before the tunnel 
was even started. I participated in some of this surface work and am 
familiar with the drilling procedures (and Dry Drilling techniques 
used). This work produced significant dust exposures to some of these 
workers and respiratory protection was not provided at that time. I 
would like to see these former workers offered the same Silicosis 
Screening Program that is currently being offered to the underground 
tunnel workers, as they may also be at risk from their job duties at 
Yucca Mountain.
    Thank you for allowing me to participate in your investigation and 
sharing my experiences from a worker's perspective. Please don't 
hesitate to contact me if I can be of any further assistance.

                                 ______
                                 
                 Biographical Sketch of Jeffrey M. Dean

    Jeffrey M. Dean resides in Las Vegas. He grew up in Woodland Hills, 
California until June 1980, when he moved to Louisiana to work in the 
drilling industry as a roughneck during the Oil Boom. He worked 
approximately 2 years at this trade, ending up back in California where 
he joined the Union. He was still working through the Operating 
Engineers Local 12 when he was called out to the Nevada Test Site in 
September 1982, where he pursued his career as a Driller. Jeffrey was 
involved in the Nuclear Testing Program and also worked at other 
military and governmental installations, including work in Russia in 
1988 to participate in the Joint Verification Experiment, while 
employed by Reynolds Electrical & Engineering Co. (REECo). The work 
slowed after the nuclear weapons testing moratorium went into effect, 
and in September 1994 he went back to work in an offshore oilfield for 
a short period until he was called out to work on the Yucca Mountain 
Project in June 1995. He was involved in all aspects of the Tunneling 
and Tunnel Boring Machine operations, working as a Conveyor Operator/
Driller and various other capacities as needed. He left the Yucca 
Mountain Project in October 1998 after the tunnel was completed. He 
went to work at another Kiewit venture, the Lake Mead Intake II Project 
in Boulder City, Nevada, where he worked Drilling & Tunneling until 
Jan. 2000. Jeffrey has been working at the Nevada Test Site for Bechtel 
Nevada since Aug. 2000.

    Senator Reid. Mr. Dean, thank you very much, and let me 
just say this. There's no question the DOE knew from previous 
experience, because we have a lot of test site workers who have 
silicosis now who didn't work in the tunnels, and there's a 
government program to try to help them. We have a lot of people 
who are very, very sick because of silicosis exposure, having 
worked at the test site all these years.
    We'll now hear from Michael Taylor.

STATEMENT OF MICHAEL TAYLOR, ENVIRONMENTAL SAFETY AND 
            HEALTH SPECIALIST, UNIVERSITY OF CALIFORNIA 
            LOS ALAMOS NATIONAL LABORATORY, YUCCA 
            MOUNTAIN PROJECTS TEST COORDINATION OFFICE
    Mr. Taylor. My name is Michael Taylor. I have 22 years of 
operational field, industrial hygiene, and occupational safety 
experience at the Nevada test site and underground 
construction, working for the Reynolds Electrical and 
Engineering Company, Lockheed, Raytheon Services Nevada, and 
General Physics Corporation. Presently, I work at Yucca 
Mountain for the University of California Los Alamos National 
Laboratory, where I am an environmental safety and health 
specialist for the test coordination office. I worked on the 
Nevada test site as a respiratory technician, specialist, 
industrial hygienist, and safety specialist. I have developed 
and operated occupational respiratory protection programs for 
both general industry and underground construction.
    Prior to my employment at the Nevada test site, I earned a 
bachelor's degree from the University of Nevada, Las Vegas. I'm 
a certified occupational health and safety technologist, OHST. 
I have been at Yucca Mountain for approximately 9 years. I am 
classified as an underground worker. In addition, I am the most 
senior member of the all-volunteer Yucca Mountain mine rescue 
team.
    Next, I want to clearly state that I am not speaking as a 
representative of the University of California Los Alamos 
National Laboratory or Yucca Mountain. I speak only as a member 
of the safety and health profession regarding the safety and 
health of the workers with whom I work. My involvement with the 
silica issues first began with my experience in nuclear weapons 
effects testing at the Nevada test site. Most of the tunnels 
made for nuclear weapons effects testing were constructed in 
volcanic tough and silica is a component of volcanic tough. 
Fibrous minerals may also be found in some types of volcanic 
tough. Silica and fibrous minerals are hazardous to human 
health because they can cause lung disease when deposited deep 
in your lungs.
    While working at the Nevada test site and then at Yucca 
Mountain, I read many professional journal articles regarding 
the dangers of silica dust and fibrous minerals, including one 
by a Los Alamos scientist in late 1996. I have no idea when the 
project became aware of the fibrous minerals hazards.
    In December of 1995, a geologist with the United States 
Bureau of Reclamation working with an underground mapping crew 
on the tunnel-boring machine in the north ramp of the 
exploratory studies facility asked if some industrial hygiene 
air sampling and monitoring could be conducted in his work 
area. The necessary industrial hygiene air sampling equipment 
and sampling medium was collected using National Institute for 
Occupational Safety and Health prescribed methods.
    Over the course of 1 week, 11 air samples were collected on 
the mapping entry of the tunnel-boring machine. The samples 
were sent to a laboratory to be analyzed. Several weeks later 
the results came back from the certified laboratory, and 9 out 
of the 11 samples were over the action level, and two were over 
the threshold limit value for respirable crystal and silica 
dust.
    Senator Reid. What is the date of this?
    Mr. Taylor. This was in December of 1995.
    Senator Reid. Thank you.
    Mr. Taylor. Senator Reid, may I enter that document into 
the record?
    Senator Reid. Yes.
    Mr. Taylor. At this point, January or February 1996, the 
Department of Energy underground construction subcontractor had 
excavated approximately 2,700 meters without providing any type 
of respiratory protection for underground workers. In January 
of 1996, the Department of Energy management and operating 
contractor did not have a written silica protection program and 
the industrial hygiene sampling and monitoring program was less 
than adequate. Workers received little or no information about 
the silica fibrous mineral hazards or protective measures.
    The management and operating contractor did not have a 
workable occupational respiratory protection program. There 
were no provisions for the required respirator physical 
examinations for respirator training, for respirator fit 
testing. The management and operating contractor had very 
little or no occupational respiratory equipment available for 
issue and use by scientists or management and operating 
personnel.
    In January or February of 1996, the management and 
operating contractor made a dust mask available for underground 
workers. It's this mask right here. While this mask is approved 
for some dust, mists, and fumes, it is not a high efficiency 
filter. A high efficiency filter is defined as being 99.97 
percent effective against micron-sized particles. Within a 
month or 2, as a result of further discussion, scientific 
management and operating personnel were issued high efficiency 
particulates and air or hepa filter, half-mask respirators, 
which are effective against silica dust. So first we got this 
one. A couple months went by and then we got this one.
    Over the next year and a half, the management and operating 
contractor continued to struggle with the development, 
implementation, operation, and compliance of a silica 
protection program and an occupational respiratory protection 
program. The underground construction subcontractor struggled 
with the normal measures that would be taken to protect workers 
from silica dust. Normal measures would include effective 
ventilation systems, atomizing water sprays, or air curtains. 
Normal measures would include engineering, administrative, work 
practice, and personal protective equipment controls.
    The technology to implement these protective control 
measures was available. However, the underground construction 
subcontractor could not always get the control measures to work 
effectively. Again, please remember that the industrial hygiene 
air sampling program was less than adequate while the 25-foot-
diameter tunnel-boring machine was excavating in the areas 
where fibrous minerals were suspected to occur.
    On at least four occasions during the late 1996 to 1997 
time frame, Department of Energy safety and health personnel 
issued a stop-work order for tunnel-boring machine operations 
because of noncompliance issues regarding the underground 
construction subcontractor's respirator program. I don't know 
how many complaints project workers filed about dust levels in 
the tunnel, but I would bet that there weren't many, because if 
you worked for the underground construction subcontractor, you 
did not stick around very long if you complained.
    Old-timers have told me that the dust they saw during 
construction at Yucca Mountain was nothing compared to some 
other projects they worked on in other parts of the country or 
the world. These miners would all say that eating dust was part 
of the job and that they actually liked the underground 
construction subcontractor because they got a lot of overtime 
and the paychecks did not bounce.
    During my tenure at Yucca Mountain, I have seen 
approximately 47 health and safety professionals come and go. 
Many of them became frustrated with the lack of progress and 
ineffectiveness of the management and operating contractor's 
safety and health program. I say this to demonstrate what a 
challenge it was to work as a safety and health professional at 
Yucca Mountain.
    Today at Yucca Mountain the underground construction 
subcontractor who excavated the exploratory studies facility 
and the east-west drift is gone. The management and operating 
contract has changed hands. Management and supervision is 
responsible and accountable for safety and health. We now have 
the Department of Energy management and operating contractor 
implement a program of a safety conscious work environment and 
integrated safety management systems.
    Today during dust-producing operations we have effective 
engineering and work practice controls, full-face air purifying 
power, and air purifying respirators with high efficiency 
filters; or airline respirators are also used during dust-
producing operations. This is what we use today.
    Workers and scientists have been empowered to be part of 
the work planning and work implementation process. Workers and 
scientists now know they have the right to stop work anytime 
they feel conditions aren't safe without fear of reprisal. 
Today Yucca Mountain is an Occupational Safety and Health 
Administration accredited voluntary protection star site, a 
distinction only one out of every 1,000 Occupational Safety and 
Health Administration work sites is able to obtain. Today Yucca 
Mountain has one of the best trained and equipped mine rescue 
teams in the country. Today the project has a written and 
workable silica protection program, industrial hygiene air 
sampling and monitoring program, and occupational respiratory 
protection program. Respirator physical examinations, 
respirator training, and respirator fit testing are all 
required and strictly enforced.
    Dry drilling of holes for scientific investigations is only 
conducted using dust averters and vacuum systems. Effective 
engineering, administrative work practice, and personal 
protective equipment control measures have been developed and 
are being implemented.
    Personally, I support Yucca Mountain. I feel that it 
fulfills an essential national energy need and it is critical 
to the safety of our citizens who live near the nuclear power 
plants across the country. It would also provide jobs for 
generations of miners to come. I feel that it is important to 
have long-term scientific studies and monitoring of the site. 
However, I do not ever again want to see a management and 
operating contractor or underground construction subcontractor 
at Yucca Mountain make the mistake of placing schedule over the 
safety and health of its workers.

                           PREPARED STATEMENT

    In closing, I want to encourage current and former workers 
to sign up for the silica screening program that the Office of 
Civilian Radioactive Waste Management and the University of 
Cincinnati have established. Any former or current Yucca 
Mountain worker who is injured or sick should receive 
compensation for the medical care he or she needs. Finally, I 
sincerely hope that you will focus on the last part of my 
statement and recognize that today nothing is more important to 
Yucca Mountain than worker safety and health.
    Thank you, Senator Reid.
    [Clerk's Note.--The statement and information were not 
available at the time of publication.]
    Senator Reid. Mr. Taylor, thank you very much for your 
testimony, and of course I do recognize the final part of your 
statement, but as I have indicated earlier, we have hundreds 
and hundreds of people who have been exposed unnecessarily to 
these substances as a result of the inattention, negligence, or 
I think criminal activity of the people at the test site. So 
I'm glad that's something's been done after the tunnel has been 
completed, I'm glad they have this fancy mask now, but this 
doesn't help Mr. Griego or certainly doesn't help Mr. Dean and 
the hundreds of other people there.
    And we're not going to get into whether Yucca Mountain's 
good or bad at this stage. I think it's awful, because when 
they talk about having one site, remember we have 111 nuclear 
reactors around the country and there are also going to be 
nuclear waste there, you're never going to get rid of it, it's 
going to be there. So instead of having one site, we're going 
to continue to have all this other, but that's for another day.
    Mr. Weeks, I think it would be helpful if you would give us 
your background because your testimony is a little bit 
different than what we've heard to this point.

STATEMENT OF DR. JAMES L. WEEKS, CERTIFIED INDUSTRIAL 
            HYGIENIST, ADVANCED TECHNOLOGIES AND 
            LABORATORIES INTERNATIONAL
    Dr. Weeks. My name is Jim Weeks. I'm a certified industrial 
hygienist.
    Senator Reid. What does that mean?
    Dr. Weeks. I thought we were going to ask questions later. 
It means that I'm a professional in the field of preventing 
occupational disease, and I'm certified by the American Board 
of Industrial Hygiene since 1984. I've been in the field for 20 
years, and most of that time I've been concerned with problems 
of monitoring and control of dust mining, primarily in coal 
mines and primarily for the United Mine Workers of America.
    By way of credentials, I currently have faculty positions 
at the public health schools at George Washington University 
and at Johns Hopkins University, and I've published a number of 
papers in this field. I'm the editor of a book on preventing 
occupational disease, and in this book we describe some generic 
approaches to how to prevent diseases.
    I'm here basically to describe some basic information 
concerning silicosis and its causes and prevention, and I've 
looked at some of the data that's been made available to me by 
some government agencies. Silicosis is an ancient disease. We 
human beings have known about it since approximately the first 
century when the Greeks and the Egyptians talked about workers 
that worked with rock and were exposed to rock dust came down 
with disabling disease. It was described in more detail in 16th 
century Europe by physicians in Italy and elsewhere. It's been 
well known in the United States since the mid-19th century, 
it's been well known amongst miners and anyone that works with 
rock and stone for any period of time.
    It's an irreversible disease, it's disabling, it's 
sometimes progressive, that is, sometimes it will continue even 
in the absence of exposure, and it's sometimes fatal. There is 
no effective treatment, and because of these features, it 
really must be prevented. It's not a disease that we can allow 
to occur and then treat it afterwards. Its cause is well known. 
It's caused by respirable crystalline silica, and when people 
inhale excessive amounts of this dust, that's where silicosis 
comes from.
    Silica is one of the most abundant minerals in the earth's 
crust, so that anytime one digs into the earth, there's a very 
high probability of being exposed to silica. And anyone that's 
worked in the mining industry, and the mining industry is very 
active in Nevada, has had experience with silica.
    Let me go into some details concerning silica that are 
important for this project. It comes in many different 
crystalline forms, the most common of which is quartz, but 
there are other forms, and for these circumstances, the other 
form that's important is cristobalite. What's important about 
cristobalite is that it seems to have a greater disease-causing 
potential than does quartz, first of all, and second of all, 
there's a lot of cristobalite at Yucca Mountain, and that was 
known very early on by samples that were taken by, I believe at 
Los Alamos and elsewhere. The exposure limit for cristobalite 
is approximately half that of silica, just as an indication of 
its greater toxic effects.
    Silica causes not only silicosis--let me say two things 
about silicosis. It occurs in two forms. Usually it occurs as a 
chronic disease. It takes many years of exposure for it to 
develop, but there is short-term high exposure, it can develop 
over a period of 6 months or even in some cases shorter. There 
was a notorious epidemic in West Virginia in the 1930's where 
workers came down with acute silicosis in a matter of months. 
And based upon some of the exposure information that I've seen, 
there have been instances of fairly high exposure well 
documented at Yucca Mountain.
    Silica also causes lung cancer. It was identified as a 
probable cause of lung cancer in 1987. It was identified as a 
definite cause of lung cancer in 1997 by the International 
Agency for Research on Cancer. It's affiliated with the World 
Health Organization. The National Toxicology Program identified 
it as a carcinogen as well. Needless to say, lung cancer is a 
progressive and fatal disease usually.
    Another feature about silica is that since the mid-1980's, 
silica that was freshly fractured, that is, just broken off of 
its parent rock, appears to be more disease--has a greater 
disease potential than stale silica. This is the so-called 
freshly fractured hypothesis. And any machine that cuts 
directly into rock, such as a tunnel-boring machine, mining 
machines, and drills is going to generate freshly fractured 
silica, and if the miners are there when that occurs, that's 
what they're going to be exposed to. Now, there's disagreement 
about what's a safe level of silica, which I really won't go 
into at this point, it's in my testimony.
    That's all the bad news. The good news is that silicosis is 
preventable and we know how to do it. The methods are not 
complicated. It basically involves the use of water and 
ventilation and traps to control the dust. The methods have 
been well developed by the U.S. Bureau of Mines over the years, 
and I believe a consultant from NIOSH, which was formerly with 
the Bureau of Mines, came to this project in 1996 and developed 
a dust control system that worked well, in fact. It appeared to 
work well based upon his measurements of exposure. Some other 
measurements that I've seen indicate that it may not have 
worked quite as well.
    Within the field of industrial hygiene, there is a 
hierarchy of controls. Engineering controls are far preferred 
over anything else because you've got one system that controls, 
and one of the problems with respirators is that for every 
person wearing a respirator you have a system that you need to 
maintain. Mr. Taylor described what a respiratory program looks 
like. It involves medically evaluating workers, selecting the 
right respirator, monitoring exposure, maintenance and control 
of respirators, and so on. He offered up a couple of 
respirators. I brought exactly the same ones, quite by 
accident, except for one, this one right here. This is a 
respirator that you can get in your local hardware store, has 
one strap, it's a fairly flimsy filter. I understand that these 
were made available but few people wore them. This is not 
effective, and more important, it's not approved by NIOSH for 
use against dust such as silica.
    Some of the other problems with respirators are that they 
leak. The protection that one gets in actual practice from 
respirators is usually much less than what is advertised in 
terms of what's called a protection factor. Respirators are 
uncomfortable, particularly if you have to wear one over a full 
shift, and if something's uncomfortable, the most natural thing 
to do is to take it off. It makes it difficult to communicate 
through. These are some of the reasons that if one is going to 
use respirators, it is important to institute a respiratory 
protection program.
    Another feature involved in preventing silicosis is 
monitoring outcome, that is, taking medical exams of workers 
before they start to work and monitoring them periodically 
afterwards. An effective monitoring program and effective 
prevention program was described by the Bureau of Mines in 1963 
based upon a survey done of metal miners throughout the 
country. The program that they described is basically the same 
program that one would apply now.
    Now, I've obtained results of exposure to silica from MSHA, 
the Mine Safety and Health Administration, from DOE, and from 
NIOSH, and all of these agencies have been quite forthcoming 
with their data, and I want to express my appreciation for 
making that data available. I haven't spent a lot of time with 
this data, but it does show clearly that there were many 
instances of high exposure, well above the exposure limit and 
exposure to quartz and to cristobalite. I have very limited 
data on exposure to erionite. The exposure appears to be quite 
limited.
    Samples that were taken after 1996 when the stop work order 
was put in place and the ventilation was put in place, suggests 
that dust levels were lower after that time, which I think 
demonstrates the feasibility and effectiveness of controls, 
that they do work and they do lower dust levels. There are some 
unexplained instances of fairly high exposure since that time, 
which frankly, I'm not quite sure what they indicate.

                           PREPARED STATEMENT

    I must say that in my work with coal miners, the conditions 
that the gentlemen here describe sound very much like the 
conditions that coal miners describe in coal mines in the 
1960's before the Coal Mine Act went into effect in 1969, and 
we've made tremendous progress in a concerted effort in 
preventing black lung in coal mines. I don't understand why we 
have to revisit silica as a hazard every 20 years or so. It's 
somewhat ironic that in dealing with this modern threat to 
disease, nuclear waste, that we should have to deal with this 
ancient problem, which is silicosis.
    Thank you very much.
    [The statement follows:]

             Prepared Statement of James L. Weeks, ScD, CIH

                        SILICOSIS IS PREVENTABLE

    My name is Jim Weeks. I am a Certified Industrial Hygienist and 
have worked on dust problems in mining for over 20 years, primarily in 
coal mines, and primarily for the United Mine Workers of America. I am 
a former member of the faculty at the George Washington University 
School of Public Health and have an adjunct faculty position there and 
at the Johns Hopkins University School of Public Health. I received my 
undergraduate degree in engineering from the University of California 
at Berkeley and a doctorate in public health from Harvard University. I 
have published several papers in scientific journals on dust monitoring 
and control. I am the senior editor of a widely used book, ``Preventing 
Occupational Disease and Injury'', published by the American Public 
Health Association with a second edition due this fall. This book is 
devoted to the prevention of occupational illnesses--such as silicosis.
    I am here to describe some basic information concerning silicosis, 
its causes, and prevention and some preliminary assessment of exposure 
data from the Yucca Mountain Project. I have no previous connection 
with this Project and am testifying today as an independent expert in 
the field and in response to an invitation from Senator Reid.

                               SILICOSIS

    Silicosis is a serious occupational lung disease caused by exposure 
to crystalline silica. It occurs most often among miners, tunnel 
workers, foundry workers, sand-blasting workers, and others. It usually 
occurs as a chronic disease that appears after about 10 or more years 
exposure but it can also occur as an acute disease in less than a year 
following exposure to higher levels of silica.\1\ It has been written 
about extensively since at least the 16th century and was recognized by 
the ancient Greeks and Egyptians in the 1st century.\2\
---------------------------------------------------------------------------
    \1\ Wagner GR. Asbestosis and Silicosis. Lancet. 349: 1311-15, 
1997.
    \2\ Ramazzini B. Diseases of Workers. Modena, Italy: 1700. 
Reprinted 1963: New York: New York Academy of Medicine.
---------------------------------------------------------------------------
    It is irreversible, disabling, and sometimes fatal. There is no 
effective treatment. In some cases, it is also progressive, i.e., the 
disease will continue even after exposure has stopped. Because of these 
features, it must be prevented. Based on our long history, and the 
lives of many miners, we have learned how to prevent it. Any case of 
silicosis in our time results from a failure somewhere.

                                 SILICA

    Silicosis is caused by inhaling excessive amounts of fine 
(``respirable'') particles of free crystalline silica. Silica is one of 
the most abundant minerals in the earth's crust so that any time one 
digs into the earth, there is a high probability of exposure to silica.
    Silica comes in different crystalline forms. The most important for 
the present situation are quartz and cristobalite. Ordinarily, quartz 
is far more abundant but if there is a history of intense heat, 
cristobalite and other polymorphs may also be present. Since Yucca 
Mountain has a history of volcanic activity, one would anticipate the 
presence of cristobalite and other forms. As we know now, there is a 
lot of cristobalite in the rock at Yucca Mountain. The difference is 
important because cristobalite has a greater disease-causing potential 
than does quartz, a feature reflected in its more stringent exposure 
limit. The exposure limit for cristobalite enforced by both the 
Occupational Safety and Health Administration (OSHA) and the Mine 
Safety and Health Administration (MSHA) is half that for quartz.\3\
---------------------------------------------------------------------------
    \3\ The Mine Safety and Health Administration adopted the 1973 TLV 
as its exposure limit for silica (30 CFR Part 57.5001).
---------------------------------------------------------------------------
    Though the relationship between silica and silicosis is well 
established, there are other known health effects also. First, workers 
exposed to silica are also more susceptible to tuberculosis. For many 
years, the prevalence of TB in the United States was declining to the 
point of insignificance but over the past two decades, it has been 
slowly increasing.\4\ \5\ Among other reasons, the increase is 
associated with workers migrating into the United States from less 
developed countries (some of whom might have worked on this project) 
where the prevalence of TB is higher.
---------------------------------------------------------------------------
    \4\ Preventing and controlling tuberculosis along the U.S.-Mexico 
border. MMWR Recomm Rep. Jan 19;50(RR-1):1-27. 2001.
    \5\ Recommendations for prevention and control of tuberculosis 
among foreign-born persons. Report of the Working Group on Tuberculosis 
among Foreign-Born Persons. Centers for Disease Control and Prevention. 
MMWR Recomm Rep. Sep 18;47(RR-16):1-29. 1998.
---------------------------------------------------------------------------
    Second, over the past two decades, a link between exposure to 
silica and the occurrence of lung cancer has been well established. The 
International Agency for Research on Cancer (IARC) identified silica as 
a Class II carcinogen (a probable human carcinogen) in 1987 \6\ and 
upgraded it to a Class I carcinogen (definite human carcinogen) in 
1997.\7\ In addition, the National Toxicology Program's 9th Report on 
Carcinogens listed silica as a known human carcinogen.\8\ Lung cancer 
is well known as a progressive and usually fatal disease.
---------------------------------------------------------------------------
    \6\ International Agency for Research on Cancer. Monographs on the 
Evaluation of the Carcinogenic Risk of Chemicals to Humans: Silica and 
Some Silicates, Vol. 42. Lyon, France: WHO/IARC, 1987.
    \7\ International Agency for Research on Cancer. Monographs on the 
Evaluation of the Carcinogenic Risk of Chemicals to Humans: Silica and 
Some Silicates, Vol. XX. Lyon, France: WHO/IARC, 1997.
    \8\ URL: http://ehp.niehs.nih.gov/roc/tenth/profiles/s161sili.pdf, 
(March 10, 2004).
---------------------------------------------------------------------------
    Third, since about the mid-1980's, so-called ``freshly fractured'' 
silica has been identified as having greater disease-causing potential 
than ``stale'' silica.\9\ Exposure to freshly fractured silica on this 
project likely occurs for tunnel-boring machine operators, alpine miner 
operators, roof-bolters, and other drill operators. Freshly fractured 
silica contains free radicals, which are molecules that are highly 
toxic to living tissue.
---------------------------------------------------------------------------
    \9\ Castranova V. Generation of Oxygen Radicals and Mechanisms of 
Injury Prevention. Enviro Health Perspect 102 Suppl. 10:65-68, 1994.
---------------------------------------------------------------------------
    Finally, there is disagreement concerning a safe exposure limit 
which is an important consideration when evaluating exposure data. Both 
OSHA and MSHA enforce a shift-average limit for mineral dust that 
contains silica that is roughly equivalent \10\ to 100 mg/m\3\ 
(micrograms per cubic meter,=0.100 mg/m\3\) for quartz and 50 mg/m\3\ 
for cristobalite.\11\ The National Institute for Occupational Safety 
and Health (NIOSH) recommended in 1972 that this limit be lowered to 50 
mg/m\3\ for both quartz and cristobalite.\12\ Since then, a steadily 
accumulating both of scientific literature has supported this 
recommendation as necessary to prevent not only silicosis but also lung 
cancer. The American Conference of Governmental Hygienists (ACGIH) 
recently reduced its exposure limit for quartz to 50 mg/m\3\. In 2001 
NIOSH reaffirmed its earlier recommendation of a 50 mg/m\3\ exposure 
limit.\13\ Gold miners exposed to silica at the OSHA or MSHA exposure 
limit had a 35 percent to 40 percent increase in the lifetime risk of 
developing silicosis.\14\
---------------------------------------------------------------------------
    \10\ This is ``roughly equivalent'' because it is derived from a 
formula that reduces the limit for respirable dust that contains quartz 
(or cristobalite) as the percent of silica increases.
    \11\ 30 CFR Part 57.5001; 29 CFR 1926.
    \12\ NIOSH Criteria for a Recommended Standard. Occupational 
Exposure to Crystalline Silica. NIOSH Pub. No. 75-120. 1974.
    \13\ NIOSH. Hazard Review. Health Effects of Occupational Exposure 
to Respirable Crystalline Silica. NIOSH Pub. No 2002-129. 2002.
    \14\ Steenland K & Brown D. Silicosis among gold miners--exposure-
response analyses and risk assessment. Am J Public Health, 85:1372-77, 
1995.
---------------------------------------------------------------------------
                               PREVENTION

    Prevention of silicosis and other diseases caused by exposure to 
silica requires attention to both exposure and outcome.
Controlling Exposure
    The principal means of preventing harmful effects of silica is by 
reducing exposure to silica dust. Following conventional practice in 
industrial hygiene, there is a hierarchy of controls that one should 
consider in controlling exposure. Engineering controls that prevent the 
release of hazards into the environment are preferred over other 
methods, such as the use of respirators. It is well-established in the 
practice of industrial hygiene and in OSHA and MSHA regulations that 
respirators should not be substituted for engineering controls.
    In the present case, engineering controls for dust in tunnelling 
operations consist of water sprays to suppress dust, ventilation to 
remove it, and dust traps to contain it. Methods are well known, 
effective, feasible, and readily available throughout the mining and 
tunnelling industries. NIOSH published a handbook on dust control in 
2003, based on work published previously.\15\ In the chapter on 
tunnelling, for instance, 15 of 18 references were published before 
1990 and most were available at no cost from the Bureau of Mines (now 
part of NIOSH).
---------------------------------------------------------------------------
    \15\ Kissell F. Handbook for Dust Control in Mining. IC 9465. 
NIOSH, Pub. No. 2003-147.
---------------------------------------------------------------------------
    If engineering controls are ineffective or not feasible, 
respiratory protection can be an effective alternative. Although 
respirators can protect workers, several problems must be addressed for 
respirators to be effective. Respirators leak, they are uncomfortable, 
they interfere with communication, they make breathing more difficult, 
and some people have other difficulties wearing them. In practice, air 
purifying respirators usually deliver less protection than the 
manufacturers claim.\16\ \17\
---------------------------------------------------------------------------
    \16\ Spear TM, DuMond J, Lloyd C, Vincent JH. An effective 
protection factor study of respirators used by primary lead smelter 
workers. Appl Occup Environ Hyg. Feb;15(2):235-44. 2000.
    \17\ Chen CC, Willeke K. Characteristics of face seal leakage in 
filtering facepieces. Am Ind Hyg Assoc J. Sep;53(9):533-9. 1992.
---------------------------------------------------------------------------
    Because of these problems, an effective program of respiratory 
protection does not consist merely of distributing respirators. It 
should include a variety of features that are described in the 
pertinent OSHA regulation.\18\ These features include evaluating the 
hazard, selecting the appropriate respirator, evaluating workers' 
health (to determine any impairment that would make them unable to use 
a respirator and to identify any health problems that exposure might 
make worse), testing a respirator fit (to prevent leaks), monitoring 
monitoring, educating workers, and organizing proper maintenance and 
storage. Selecting the appropriate respirator is greatly facilitated by 
the NIOSH publications on silica (the 1972 Criteria Document and the 
2001 Hazard Review) and by the NIOSH ``Guide to the Use of Respiratory 
Protection.''\19\
---------------------------------------------------------------------------
    \18\ 29 CFR 1910.134. This regulation applies to general industry 
and is referenced because it outlines a model program for respiratory 
protection. It is modeled after the ANSI standard, Z 88.
    \19\ This guide is available on a CD at no cost from NIOSH.
---------------------------------------------------------------------------
    There is a wide range of respirators to choose from. At one end, 
disposable dust masks are not satisfactory for this job. One step up 
would be to use so-called air-purifying respirators. These have much 
better filters but are uncomfortable to wear. Another step up is to use 
a powered air-purifying respirator (PAPR) in which a battery-operated 
fan pulls air through a filter and provides it to the worker with a 
mask or as a curtain of clean air behind a face shield. This makes 
breathing easier. Many are used in underground coal mines. (Photographs 
of each type, obtained from the Internet, are attached.)

Monitoring Outcome
    Workers on hazardous jobs such as this should receive medical 
monitoring as well. An exam when first hired is useful to establish a 
base-line and to identify any latent cases of silicosis or other lung 
diseases. An exam to evaluate suitability for wearing respirators is 
part of a respiratory protection program. And periodic exams are useful 
to ensure that no disease gets established and to identify any trends 
or clusters in the occurrence of disease. Recommendations specifically 
for medical surveillance and screening for respirable dusts were 
written by the current Director of Respiratory Disease Studies at NIOSH 
and published by the World Health Organization in 1996.\20\
---------------------------------------------------------------------------
    \20\ Wagner GR. Screening and Surveillance of Workers Exposed to 
Mineral Dusts. Geneva: World Health Organization, 1996.
---------------------------------------------------------------------------
    In 1963, the Bureau of Mines and the U.S. Public Health Service 
conducted a survey of miners to determine the prevalence of silicosis 
among metal miners and to measure exposure to silica.\21\ This was a 
follow-up to surveys conducted in 1914 and 1933. At the conclusion of 
this survey, they described a program for preventing silicosis (p 21-
24) that covers the procedures described above. It recommended
---------------------------------------------------------------------------
    \21\ U.S. Public Health Service; U.S. Bureau of Mines. Silicosis in 
the Metal Mining Industry, A reevaluation: 1958-1963. Washington, DC: 
U.S. Government Printing Office. 1963.
---------------------------------------------------------------------------
  --dust monitoring,
  --dust control,
  --workers' education,
  --consult with the Bureau of Mines for technical assistance,
  --medical evaluation of workers before working and periodically 
        thereafter.
    I mention these recommendations because they are as applicable 
today as they were 40 years ago. The means for preventing silicosis 
have been known for a long time. These recommendations made in 1963 
were similar to those offered at the earlier surveys in 1914 and 1933.

                          DOCUMENTED EXPOSURE

    I obtained results of exposure to silica from MSHA, from the 
Department of Energy, and from NIOSH. These agencies were very 
responsive to my requests and I wish to thank them for their 
cooperation. I have had only limited to analyze these data so have only 
some preliminary comments. The data from MSHA covers the period from 
1996 to 2001; the data from DOE, from 1993 to 2001. The data from NIOSH 
were connected to a project to improve dust controls and did not 
directly measure workers' exposure.
    These records document that exposure to quartz and cristobalite was 
common, that there were instances of exposure above, and some very much 
above, exposure limits. Other documents state that earlier in the life 
of this project, much cutting was done dry (i.e., without water to 
suppress dust), a circumstance that would have produced a great deal of 
dust. Respiratory protection was apparently uneven during this time.
    Samples taken after dust controls were instituted in 1996 suggest 
lower levels, thus demonstrating the feasibility and effectiveness of 
controls. However, there are some unexplained instances of high 
exposure since that time. Respiratory protection and worker education 
appear to be better since 1996 although there is room for improvement. 
The records indicate that workers were using respirators as part of a 
respiratory protection program as described in the ANSI Z88-1969 
standard.

                               CONCLUSION

    It is ironic that cases of silicosis occurred in connection with 
this project. This project is designed to address a modern hazard but 
in the course of doing so, this ancient hazard was apparently 
overlooked.
    Silicosis and lung cancer are both serious and irreversible 
diseases. Prevention is a necessity. Silica--quartz and cristobalite--
is well known as a cause. Prevention is also feasible with methods that 
are well known and effective. In these times, any case of silicosis 
results from a failure to use available knowledge.\22\
---------------------------------------------------------------------------
    \22\ Wagner GR. The inexcusable persistence of silicosis. Am J 
Public Health. Oct;85(10):1372-7. 1995.
---------------------------------------------------------------------------
                                 ______
                                 
            Biographical Sketch of James L. Weeks, ScD, CIH

    Dr. James (Jim) Weeks holds a position at Advanced Technologies and 
Laboratories International, Inc., a consulting firm in Germantown, 
Maryland. This firm employs about 150 people in three other locations: 
Gaithersburg MD, Oak Ridge TN, and Richland WA. It provides technical 
services and performs work on a variety of environmental and 
occupational health issues for many agencies, including the National 
Institute of Occupational Safety and Health, the Occupational Safety 
and Health Administration, the Department of Energy, the Environmental 
Protection Agency, and the Department of Defense. Jim is working on 
problems of heat stress among hazardous waste workers and falls from 
scaffolds.
    Jim provides technical assistance to the American Postal Workers 
Union and the United Mine Workers. He continues to serve the George 
Washington University's School of Public Health and Health Sciences as 
Adjunct Associate Professor.

    Senator Reid. Thank you very, very much for your testimony. 
I'm grateful to you for it. I will have some questions for you, 
as you have indicated, but I think the one sentence of your 
testimony is so strong, any case of silicosis in our time 
results from a failure somewhere is your direct statement. I 
think you've certainly provided that well, and of course all 
the data that's provided to you by these other organizations 
post-1996 when the closure took--the mines----
    Dr. Weeks. No, I received data from 1993, yes I did.
    Senator Reid. Thanks. I appreciate that. Thanks for 
clearing that up.
    We'll now hear--how do you pronounce your last name?
    Dr. Vogelzang. Vogelzang.
    Senator Reid. Vogelzang, just like it looks. I just want 
to, so people didn't think I was trying to be puffy here, Dr. 
Vogelzang was director of the University of Chicago Cancer 
Research Center for 21 years--I'm sorry, for 4 years. He's been 
at the University of Chicago for 21 years, one of the finest 
centers for medical technology in the world, and he has 
authored approximately 50 papers on the subject of 
mesothelioma. He has authored nearly 350 scientific 
publications, 320 abstracts, given 300 lectures. He is a 
survivor of Hodgkin's disease himself. He has been listed in 
Best Doctors in America since 1994, and as I indicated, we're 
very fortunate to have you now a resident of the State of 
Nevada. Please proceed, Doctor.

STATEMENT OF DR. NICHOLAS J. VOGELZANG, DIRECTOR, 
            NEVADA CANCER INSTITUTE
    Dr. Vogelzang. Thank you, Senator Reid. I appreciate this 
opportunity.
    Senator Reid. And I'd like you to spend just a little bit 
of time on the erionite.
    Dr. Vogelzang. Right. Dr. Weeks and I did not have a chance 
to communicate ahead of time, and I am actually quite intrigued 
by the issue of silicosis and cancer of the lung; but I did not 
go into that in my testimony, so I'm going to focus on 
mesothelioma and its relationship to erionite and perhaps some 
issues related to mordenite. And again, I don't have the 
occupational exposure data that was in the ambient dust or air. 
I would just like to confine my comments then to mesothelioma 
and erionite.
    Mesothelioma is a routinely fatal cancer of the lining of 
the lung. It usually occurs after asbestos exposure, about 30 
to 60 years after asbestos exposure. Once diagnosed, the 
patients live on the average about 15 months. The average 
person is over 50 when they develop the disease. The current 
age is 70 when patients develop the disease. It occurs in about 
5,000 patients a year in the United States. However, in certain 
countries, for example, Australia, it is a particularly larger 
burden due to larger use of more carcinogenic asbestos. 
Treatment for this disease is limited, although we've really 
seen some good results with a new type of chemotherapy.
    Senator Reid. That's something you developed, is that 
right?
    Dr. Vogelzang. That's correct. My experience with erionite 
is not that of an occupational scientist or physician, rather 
as a mesothelioma doctor. And as I understand it, this is my 
reading in the literature, erionite is a carcinogen. It is 
listed as a group 1 carcinogen by the International Agency for 
Cancer Research, and as we heard previously from the other 
witnesses, it is quite capable, in fact more capable than 
asbestos, of causing mesothelioma.
    Now, I received a report by Drs. Guthrie, Bish, Chapera, 
and Raymond from the Los Alamos laboratories dated May 1995 in 
which they analyzed the presence of erionite in the test drill 
sites. This map on page 17 describes a heavy concentration of 
erionite in what is known as core UZ14. Unfortunately, I could 
not locate core UZ14, it does not appear to be within the 
confines of the drill or the mining area. However, there was 
fractured erionite in core UE25AGU3 and G3. Now, 
interestingly--and those areas are very close to the 
tunneling--mordenite is a similar fibrous material that can at 
least look very much like asbestos. Very little is known about 
that compound as far as its risk of mesothelioma, whether it's 
as high a level; but it is listed as a class 3, which means 
possibly capable, and mordenite is found in almost all of the 
drill sites, the test sites in the area. And again, I don't 
want to take up your time listing them all, but at least 10 
sites list mordenite as being present. And again, I do not have 
information as to the presence of mordenite in the respirable 
air.
    Turning then back to erionite, erionite has----
    Senator Reid. Doctor, what does mesothelioma mean?
    Dr. Vogelzang. Mesothelioma means cancer of the 
mesothelium. The mesothelium is between our skin, the 
ectothelium, and the intestines, the endothelium; so it's the 
middle--meso means middle--of our body.
    The link between erionite and mesothelioma is most noticed 
in Turkey; and in that area, there are volcanic-containing 
tufts that have very high levels. However, there seems to be a 
link between erionite and genetics; because in most places in 
Turkey, it's only found in certain villages even though an 
entire area is exposed. So there may be a strong link between 
genetics and mesothelioma. That has not yet been proven in any 
populations in the United States.
    Erionite is present throughout the West. It's found in 
Nevada, California, and Oregon. However, at the current time, 
it has not been linked to mesothelioma in this population. The 
Turkish occupation was non-occupational; that is, it was within 
the living areas. We believe that occupational exposure to 
erionite, which has not been well-documented yet, would lead to 
even increased risk of mesothelioma. We do know that workers 
exposed to zeolite in Libby, Montana, were exposed to erionite; 
and, therefore, that is a substantial concern for those 
patients and those individuals.
    So concluding, erionite is a known cause of mesothelioma in 
animals and man. However, there are no documented cases of 
erionite-induced mesothelioma as of yet in the United States.
    Senator Reid. Now, Doctor, just one brief question while 
it's on my mind. Cases relating to this substance using past 
history with asbestos would take some time to develop.
    Dr. Vogelzang. Many years, 60 years or more.
    Senator Reid. And so, sadly, the people exposed to this at 
the Nevada, near the Nevada test site at Yucca Mountain, there 
is no telling when it will come. The average age, you said--you 
didn't say the average but it usually appears after 50.
    Dr. Vogelzang. Right.
    Senator Reid. I had a, interestingly enough, 2 weeks ago my 
brother called me and my brother's 12 or so years older than I 
and he had a friend, and he said, do you remember, and he 
mentioned him. I said sure, my brother Dale used to live with 
the family when we were in Searchlight. And he said, well, he's 
got mesothelioma and he's never been around anything that he 
knows of, but of course he knew that he had a death sentence at 
the time of 14, 15 months, and he never remembered----
    Dr. Vogelzang. Well, these may well be erionite-exposed 
individuals.
    Senator Reid. And he's 70 years old.

                           PREPARED STATEMENT

    Dr. Vogelzang. That would be approximately the right time 
period. I believe though that most importantly we need to 
establish a registry of mesothelioma, particularly in miners. I 
believe there needs to be very careful genetic and occupational 
establishment of the risks of both erionite but also mordenite. 
There's little data anywhere in the scientific literature on 
mordenite. And also, any of this research must take into 
account the long latency period of mesothelioma. I'd like to 
thank you, Senator Reid, for this opportunity today.
    [The statement follows:]

           Prepared Statement of Nicholas J. Vogelzang, M.D.

                              MESOTHELIOMA

    Malignant mesothelioma is a cancer of the lining of the chest and 
abdomen and is usually associated with a history of exposure to 
asbestos 30-60 years prior to the diagnosis. Mesothelioma is one of the 
most aggressive human cancers, is frequently diagnosed at an advanced 
stage, and is very difficult to treat. Patients in this situation 
usually survive about 15 months. Most people who get mesothelioma are 
over 50 years of age. Men are more likely than women to get this 
disease. Mesothelioma of the pleura accounts for about 2,000-3,000 
cancer deaths per year in the United States, while a similar number die 
from mesothelioma of the lining of the abdomen (peritoneum).
    Depending on the stage of diagnosis and the overall health of the 
patient, several treatment options exist for mesothelioma including 
surgery, chemotherapy and radiation. If caught early, a surgical cure 
is sometimes possible. However, if the cancer has spread or progressed, 
a cure is not possible. Chemotherapy and radiation may prolong life, 
but can rarely cure the cancer.

                                ERIONITE

    Erionite is a naturally occurring fibrous zeolite. Its basic 
structure is aluminosilicate tetrahedra. An oxygen molecule is shared 
between two tetrahedra. The structure of erionite is chainlike, with 
six tetrahedra on each edge of the unit forming part of a chain of 
indefinite length. Erionite consists of white prismatic crystals in 
radiating groups. It is not known to occur in other than fibrous form, 
in single needles, or in clusters. Erionite fibers, with a maximum 
length of approximately 50 mm, are generally shorter than asbestos 
fibers. Erionite particles resemble amphibole asbestos fibers and 
absorb water up to 20 percent of their weight. Zeolites, in general, 
have good thermal stability, rehydration kinetics, and water vapor 
adsorption capacity (Clifton 1985).
    The EPA regulates erionite under the Toxic Substances Control Act 
(TSCA) as a chemical substance for which there are significant new uses 
and thereby specifies procedures for manufacturers, importers, or 
processors to report on those significant new uses. OSHA regulates 
erionite under the Hazard Communication Standard and as a chemical 
hazard in laboratories.
    Deposits of fibrous erionite are located in Nevada, Arizona, 
Oregon, and Utah. Erionite fibers have been detected in samples of road 
dust in Nevada. U.S. residents of the Intermountain West may be 
potentially exposed to fibrous erionite in ambient air (Rom et al. 
1983, IARC 1987a).

                       ERIONITE AND MESOTHELIOMA

    There is scientific evidence that exposure to erionite causes 
mesothelioma. An IARC Working Group reported that there is sufficient 
evidence of carcinogenicity of erionite in experimental animals to 
label it as (IARC 1987a,b). When administered by inhalation, erionite 
induced pleural mesotheliomas in rats of both sexes. When administered 
by intraperitoneal injection, erionite induced peritoneal mesotheliomas 
in male mice. When administered by intrapleural injection, erionite 
induced pleural mesotheliomas in male and female rats.
    Erionite fibers have been identified in lung tissue samples in 
cases of mesothelioma. The link between erionite and mesothelioma is 
most firm in two villages in Turkey where 50 percent of deaths are 
caused by mesothelioma. Erionite-containing volcanic tuffs were found 
in samples collected from the walls of local dwellings and rock and 
dust samples (Pooley 1979, cited by Baris et al. 1996). Descriptive 
studies have demonstrated very high mortality from malignant 
mesothelioma, mainly of the pleura, in these Turkish villages where the 
population had been exposed to erionite from birth. Erionite fibers 
were identified in lung tissue samples in cases of pleural 
mesothelioma; ferruginous bodies (diagnostic of exposure) were found in 
a much higher proportion in the lungs of inhabitants in contaminated 
villages than of those in two control villages (Baris 1991).
    Erionite is a very potent carcinogen and mutagen. The rate of 
mesothelioma cases in these Turkish villages is estimated to be four 
times greater than that in populations industrially exposed to asbestos 
(Esmen and Erdal 1990). Furthermore, animal experiments demonstrate 
that erionite is more potent than asbestos in causing mesothelioma. 
Mineralogical analysis of the mesothelioma patients' lung tissues 
showed more than 90 percent of the fibrous particles to be erionite 
(Baris 1991).
    These studies suggest that a very small number of erionite fibers 
is sufficient to cause mesothelioma. While erionite is present in 
Nevada, California, Oregon and other States, it has not been linked to 
mesothelioma in the populations.
    It is worthy of note that while some research suggests that certain 
individuals have a genetic predisposition to mesothelioma possibly 
making them more susceptible to erionite carcinogenity, it has yet to 
be proven. A gene has not been identified for mesothelioma nor have 
other environmental factors been eliminated to date. Further 
epidemiological and environmental investigations are needed.
    The exposures in Turkey are non-occupational; however, there is 
much scientific evidence to indicate that occupational exposure to 
certain minerals, metals, and fibers can cause lung disease. 
Occupational exposures occur during mining, milling and processing of 
some zeolites as well as during agricultural work in areas in which 
soils are contaminated with erionite. Therefore, given the low-exposure 
necessary to cause mesothelioma, it can be extrapolated that the 
effects of occupational and non-occupational exposures would be 
approximately equal.
    All workers involved in the production or use of zeolite-containing 
products are potentially exposed to erionite, which is mined with 
deposits of other zeolites. Total dust exposures in an open-pit zeolite 
(containing erionite) mine in Arizona for miners ranged from 0.1 to 
13.7 mg/m\3\; respirable dust in the mining area was 0.01 to 1.4 mg/
m\3\ (IARC 1987a).
    In conclusion, erionite is a known cause of mesothelioma in animals 
and man. However, there are no documented cases of erionite-induced 
mesothelioma in the United States. Further research is needed to 
determine the genetic and occupational risks of erionite exposure. Such 
research must take into account the long latency period of asbestos-
related mesothelioma.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
           Biographical Sketch of Nicholas J. Vogelzang, M.D.

    Dr. Vogelzang received his M.D. degree from the University of 
Illinois at Chicago in 1974. He completed his internship, residency, 
and chief residency in internal medicine at Rush-Presbyterian-St. 
Luke's Medical Center in Chicago, followed by his fellowship in medical 
oncology at the University of Minnesota in Minneapolis. He served as a 
faculty member at the University of Chicago from 1982 through 2003. 
Prior to joining Nevada Cancer Institute on January 1, 2004, Dr. 
Vogelzang served as the director of the University of Chicago Cancer 
Research Center from 1999 to 2003.
    Dr. Vogelzang has 25 years of experience as an oncology physician/
scientist in the field of asbestos-related mesothelioma and has 
authored approximately 50 papers on the subject. In addition, he has 
conducted large-scale national trials in the field. He has served on 
numerous committees of the American Society of Clinical Oncology, as 
well as on its Board of Directors from 1993 to 1996. He is a former 
president of the Illinois Division of the American Cancer Society. Dr. 
Vogelzang was the principal investigator at the University of Chicago 
for Cancer and Leukemia Group B (CALGB) from 1988 to 1999, Chair of the 
mesothelioma subcommittee from 1985 to 1998. He is a founding board 
member of the Mesothelioma Applied Research Foundation and is a member 
of many professional societies, including the American Association for 
Cancer Research, the American Urological Association, the Society of 
Urologic Oncology and the European Society for Medical Oncology.
    Dr. Vogelzang serves on the Editorial Board of Seminars in 
Oncology, has served on the boards of Cancer, Cancer Research, The 
Prostate Journal, and the Journal of Clinical Oncology, and is a 
reviewer for numerous other journals. He is the author of nearly 350 
scientific publications (including peer-reviewed papers, internet 
publications, reviews, book chapters and books and journal issues), 
over 320 abstracts and letters, and has given over 265 scientific 
lectures. As a survivor of Hodgkin's disease, he is a sought after 
public speaker. He is the lead editor of the Comprehensive Textbook of 
Genitourinary Oncology.
    Dr. Vogelzang has received numerous awards that distinguish him as 
a physician-researcher including: Distinguished Trinity Christian 
College Alumni, 2003, listed in Best Doctors in America, 1994 to 
present, Fred C. Buffett Professorship, University of Chicago, 1999 to 
2003, Castle Connolly Medical, Ltd., America's Top Doctors, 2001; 
Chicago Metro Area, 2001, American Cancer Society St. George National 
Award, 1999, Listed in top 500 doctors in Chicago by Chicago Magazine, 
1998, 2003.

    Senator Reid. Thank you very much for being here. I 
appreciate your patience. We may have a couple questions if you 
don't mind just waiting.
    If we could now hear from the Department of Energy. Who's 
going to be the spokesperson?

STATEMENT OF GENE E. RUNKLE, SENIOR SAFETY ADVISOR, 
            OFFICE OF CIVILIAN RADIOACTIVE WASTE 
            MANAGEMENT
    Mr. Runkle. Senator Reid, I am Gene Runkle, senior safety 
advisor to the director of the Office of Civilian Radioactive 
Waste Management. I am also the program manager for the Yucca 
Mountain Silicosis Screening Program. Thank you for the 
opportunity to testify at this hearing.
    The Department of Energy is committed to providing a safe 
workplace for our workers. Specific concerns have been raised 
about potential worker exposures to elevated levels of silica 
during tunnel mining and underground operations in the 1990's. 
We have taken these concerns seriously and have confronted the 
issues in a straightforward manner. We commended the former 
workers who raised this concern and we have initiated a medical 
screening program based upon the broadest reasonable assumption 
of possible exposures. We are committed to addressing potential 
health effects on former and current workers on the Yucca 
Mountain project.
    In the fall of 2003, the Department analyzed exposure 
monitoring data, which indicated that allowable levels of 
respirable silica were exceeded for some operations from 1993 
through 1997. To determine working conditions during that 
period, we have reviewed some 400 documents on mining 
operations, monitoring, and respiratory protection. The tunnel 
was mined with minimal use of water to ensure scientific 
integrity of the tests. To compensate, special filters were 
designed and safety programs were put in place. Respiratory 
protection was made available to Yucca Mountain workers. 
However, between 1992 and 1996, requirements for its use were 
not consistently applied.
    Since 1996, requirements for the use of respiratory 
protection have been in effect and have been rigorously 
enforced. In 1998, we established the Silica Protection Program 
to provide ongoing medical surveillance through X-rays, lung 
function evaluations, and exams. Through this program we have 
diagnosed two individuals with silicosis, both of whom worked 
at Yucca Mountain and were also previously involved in other 
mining activities.
    The silica protection program also addresses erionite, a 
fibrous material found in certain types of rock formations. The 
respiratory protection provided to workers are equipped with 
high efficiency filters that remove particulates, including 
erionite, silica dust, and radon. Any health effects from 
erionite would be identified by the ongoing medical 
surveillance and screening programs.
    We believe we have a sound program in place to protect our 
workers. To ensure this, we recently arranged for an 
independent review. This assessment was conducted by certified 
industrial hygienists from industry, the National Institute for 
Occupational Safety and Health, and the Department. All of 
these experts are from outside of our program. They determined 
that the program was sound, but recommended some enhancements 
that we are now evaluating.
    In response to concerns about historical silica exposures, 
we contracted with the University of Cincinnati to establish 
the silicosis screening program for current and former workers. 
This medical screening program is voluntary and is available at 
no cost to the workers, an estimated 1,200 to 1,500 
individuals. To date, we have mailed some 2,400 letters and 
around 240 workers have signed up to participate. Work history 
interviews have started and medical examinations will begin 
shortly.
    After the screening is complete, there will be an 
evaluation to determine what additional actions should be 
taken. Since the screening program was announced in January, 
two additional concerns have been raised. The State's 
environmental protection division conducted an inspection of 
the muck pile outside of the tunnel in response to 
congressional inquiries about the possibility of silica dust 
blowing off the pile, and found the site to be in compliance. 
The project has undergone five air quality inspections since 
1994 and has been in compliance each time.
    Another topic of concern is the alleged falsification of 
data in 1996. On February 18, 2004, we requested the Office of 
the Inspector General to investigate these allegations. We are 
awaiting the completion of the investigation and will take 
appropriate action to address the findings. If the Nuclear 
Regulatory Commission authorizes construction of a repository 
at Yucca Mountain, tunnels will be mined for waste placement. 
To perform these operations safely, we are utilizing the 
internationally recognized expertise of the Colorado School of 
Mines and the National Institute of Occupational Safety and 
Health.

                           PREPARED STATEMENT

    In summary, the Department of Energy acknowledges that 
allowable levels for respirable silica were exceeded at times 
during tunnel operations in the early to mid-1990's. We have 
established a screening program to identify and offer medical 
screening free of charge to current and former workers. We will 
continue to emphasize a safety-conscious work environment and 
future operations will be built upon this commitment. Thank 
you, and at this time, John Arthur, Deputy Director of the 
Office of Repository Development, and I would be pleased to 
answer any questions.
    [The statement follows:]

                  Prepared Statement of Gene E. Runkle

    Mr. Chairman and members of the committee, I am Gene Runkle, Senior 
Safety Advisor to the Director of the Office of Civilian Radioactive 
Waste Management (OCRWM). I am also the Program Manager for the Yucca 
Mountain Silicosis Screening Program. Thank you for the opportunity to 
testify at this hearing and to provide information about the Silicosis 
Screening Program.
    Management at all levels of the Department of Energy (DOE) and the 
Office of Civilian Radioactive Waste Management is committed to 
providing a safe work place for our workers. Establishing a safety 
conscious work environment is our commitment to an employee's right to 
raise concerns without fear of retaliation, to self-identification of 
issues, to prompt action to address any issues and concerns, and to 
continuous improvement of all processes. We are continuously improving 
our safety program, as evidenced by accomplishments such as the 
certification in 2000 of our Integrated Safety Management System, and 
the award in 2003 of Star Status in the Department's Voluntary 
Protection Program. A safety conscious work environment is the 
cornerstone of our commitment to protect worker health and safety and 
the public.
    As you are aware, concerns about worker exposures to airborne 
crystalline silica generally relate to work performed at the Yucca 
Mountain Exploratory Studies Facility in the early to mid-1990s. During 
this period, there was active mining of a 5-mile tunnel to provide 
access, for testing purposes, to the geologic strata where spent 
nuclear fuel and high-level radioactive waste would be emplaced in a 
repository. This work was performed by a firm that has completed its 
work and is no longer associated with the Yucca Mountain Project. To 
determine working conditions and practices during that period, we have 
reviewed some 400 documents associated with tunnel mining operations, 
personal monitoring data, and respiratory protection. In addition, we 
are aggressively evaluating the risks of worker exposure to silica from 
Yucca Mountain Project activities from the mid-1990s up to the present 
time and intend to continue into the future.
    Specific concerns have been raised about potential worker exposures 
to elevated levels of silica during tunnel mining and other underground 
operations in the 1990s. The Department has taken these concerns 
seriously and has confronted the issues in a straightforward manner, 
and we will continue to do so. We have commended the former employees 
who raised this concern, and we have initiated a medical screening 
program based upon the broadest reasonable assumption of potential 
exposures. We have also made extensive efforts to notify all current 
and former Yucca Mountain workers about the screening program. We have 
been candid in our responses to questions on this issue and in our 
other communications, acknowledging what we do not know and committing 
to address potential health effects on former and current workers from 
their work on the Yucca Mountain Project.

                               BACKGROUND

    In September 2003, a former Yucca Mountain Project employee 
expressed a concern to the DOE Office of Inspector General that there 
had been overexposure to respirable silica and carcinogenic substances 
during tunnel mining operations from 1993 through 1998. In the fall of 
2003, OCRWM and the Office of Environment, Safety and Health analyzed 
exposure-monitoring data, which indicated that allowable levels of 
respirable silica were exceeded for some operations from 1993 through 
1997. Monitoring data for erionite (a known carcinogen), other fibrous 
zeolites, and diesel exhaust also were analyzed; however, respirable 
silica was determined to be the likely primary hazard for workers.
    Silica is one of the minerals that naturally exist in desert soils 
and in the rocks at Yucca Mountain. It can become airborne during dust-
producing activities like tunnel boring operations. If inhaled, silica 
can collect in the respiratory system and, with long-term exposure, can 
cause a chronic, progressive lung disease called silicosis.
    Exposure to silica and dust is controlled through engineering 
controls including ventilation, good work practices, and personal 
protective equipment such as respirators. The level of control achieved 
is determined by monitoring the air for silica concentration. Unlike 
other hard-rock mining operations that use water for dust suppression, 
the Exploratory Studies Facility tunnel was bored with minimal use of 
water to ensure scientific integrity of the tests that would be 
performed there. To compensate, special air pickups and filtration 
systems were designed for the tunnel and mining equipment. Operators 
were not satisfied with the performance of these systems in dealing 
with difficulties encountered during actual boring operations and 
enhanced the systems multiple times to improve dust control.
    Prior to the beginning of tunnel boring operations in 1994, safety 
programs were in place. Respiratory protection was made available to 
Yucca Mountain workers; however, between 1992 and 1996, requirements 
for its use were not consistently applied. In 1996, the Office of 
Civilian Radioactive Waste Management issued a stop work order, 
established a rigorous respiratory protection program, and enhanced 
monitoring of the work environment. Also in 1996, ventilation in the 
tunnel was improved to better control dust levels. Our records indicate 
that requirements for the proper use of respiratory protection have 
been in effect since 1996 and have been rigorously enforced.
    In 1998, we established the Silica Protection Program to provide 
ongoing, annual medical surveillance of current tunnel workers. This 
program continues today, and we are actively monitoring our workers' 
health. We meet the standards for worker safety as outlined in the 
Occupational Safety and Health Administration's Special Emphasis 
Program and in National Institute for Occupational Safety and Health 
recommendations, and our medical surveillance program meets or exceeds 
Federal standards. Employees enrolled in the Silica Protection Program 
receive X-rays that are evaluated by radiology specialists, lung 
function evaluations, and physical exams. The Silica Protection Program 
has identified two cases of silicosis to date. Both of these 
individuals worked at Yucca Mountain and were also involved in other 
mining activities.
    The Silica Protection Program also addresses erionite, a fibrous 
material found in volcanic and sedimentary rocks. The respiratory 
protection provided to workers is equipped with high efficiency 
particulate air (HEPA) filters, which filter 99.97 percent of all 
particles 0.3 microns in size or larger. This level is sufficient to 
filter out the bulk of airborne particulates found in the Exploratory 
Studies Facility, including erionite, silica dust, and radon progeny 
particulate radionuclides. An extremely small quantity of erionite was 
found during mining operations--a fracture coating 1 millimeter thick. 
Mining operations were carefully planned to avoid erionite deposits 
that are known to exist in the Yucca Mountain strata below the current 
tunnel. Regulatory standards for erionite do not exist, so erionite 
levels are compared to regulatory standards for asbestos, which is a 
similar carcinogen. Erionite exposure levels during and since the 
mining operations have not exceeded the asbestos regulatory standards.
    In drilling locations where scientists identified that erionite may 
be present, the Department of Energy utilized a self-imposed erionite 
control protocol to protect workers. This protocol included protective 
clothing, respirators, and erionite monitoring and is similar to that 
utilized by industry to protect workers from asbestos. Any potential 
health impacts from erionite would be picked up by the ongoing medical 
surveillance and screening programs.
    We firmly believe we have a sound program in place to protect our 
workers and provide a safe working environment. However, to provide 
assurance in this matter, we recently arranged for a team of industrial 
hygienists to perform an independent review of the current Silica 
Protection Program and other aspects of our industrial hygiene program 
at the Yucca Mountain Project. Certified industrial hygienists from 
Bechtel National, Inc.; the Department of Energy Office of Worker 
Protection Policy and Programs; Shaw Environmental and Infrastructure, 
Inc.; and the National Institute for Occupational Safety and Health 
conducted the assessment. They determined that the program is sound but 
recommended various managerial and technical enhancements that we are 
now considering.

                      SILICOSIS SCREENING PROGRAM

    Now I will provide details on the actions OCRWM has taken in 
response to concerns about historical silica exposures.
    OCRWM contracted with the University of Cincinnati, which has 
considerable experience in performing similar screening programs, to 
establish a one-time, independent medical screening for current and 
former workers. On January 15, 2004, the Silicosis Screening Program 
was announced, and a toll-free information line operated by the 
University of Cincinnati became operational. The Program is voluntary, 
available at no cost to workers, and open to all current and former 
workers who spent 20 or more days underground in a year. The University 
of Cincinnati leads a consortium that includes Zenith Administrators; 
Duke University Medical Center; and the Center to Protect Workers' 
Rights, which has been instrumental in working with labor organizations 
to facilitate worker notification.
    The screening program is open to workers who may have been exposed 
to airborne silica in the tunnel at various times during tunnel mining 
operations--an estimated 1,200 to 1,500 individuals (1992-present). We 
will not know who has been affected until the medical screening is 
complete. After the initial screening, there will be an evaluation to 
determine what additional actions should be taken.
    To date, approximately 2,400 letters notifying current and former 
workers about the program have been mailed, and approximately 240 
individuals have signed up to participate. Work history interviews have 
started, and the medical exams will begin shortly. A few non-employees 
have also called the information line. We welcome anyone who visited 
the underground facilities multiple times within a year to call and 
obtain information, but I want to stress that we do not anticipate that 
any non-workers would have been impacted, due to their restricted 
access to work areas and the short duration of their visits.
    Since the Silicosis Screening Program was announced in January, two 
additional concerns have been raised.
    The State of Nevada Environmental Protection Division conducted an 
inspection of the ``muck pile'' outside the Exploratory Studies 
Facility tunnel in response to Congressional inquiries about the 
possibility of silica dust blowing off the pile. The Environmental 
Protection Division conducted an air quality permit inspection on 
February 12, 2004. The site was found to be in compliance. The Yucca 
Mountain Project has undergone five air quality inspections since 1994 
and has been found to be in compliance each time. In addition, the 
Yucca Mountain Project conducts its own samplings, using an air 
monitoring network throughout the site.
    A second topic of concern is the alleged falsification of data in 
the 1996 timeframe. On February 18, 2004, Dr. Chu, OCRWM Director, 
requested that the DOE Office of the Inspector General investigate 
these allegations, and OCRWM management requested all employees to 
respond to any requests for information from the Inspector General. Dr. 
Chu also requested that the Inspector General determine why DOE was not 
notified of this former employee's statements when they were originally 
made. We are awaiting completion of the Inspector General investigation 
and are committed to taking appropriate action in response to their 
findings.

                           FUTURE OPERATIONS

    If the Nuclear Regulatory Commission authorizes construction of a 
repository at Yucca Mountain, an extensive network of tunnels would be 
mined to create areas for waste emplacement. We are looking ahead to 
this mining operation and taking steps to ensure we can perform it 
safely. The Department of Energy and Bechtel SAIC Company, LLC, are 
planning safety and health and industrial hygiene programs for the 
construction period to address the significantly increased level of 
work that would accompany future activities. The Department is 
currently utilizing the internationally recognized expertise of the 
Colorado School of Mines to advise on emerging and innovative 
excavation and dust control technologies that could be used at Yucca 
Mountain. Additionally, we will continue to use the expertise of the 
National Institute for Occupational Safety and Health for advice and 
recommendations on enhancing our health protection programs.

                               CONCLUSION

    In summary, the Department of Energy identified that allowable 
levels for respirable silica were exceeded during some tunnel 
operations in the early to mid-1990s and implemented more comprehensive 
silica protection processes. In response to employee concerns on 
potential exposure to silica, we have established a Silicosis Screening 
Program with the University of Cincinnati for current and former 
workers. We will continue to protect our workers through a safety 
conscious work environment, which emphasizes self-identification of 
issues and concerns; prompt response to issues; and continuous 
improvement. Future operations will build upon this commitment, and we 
will continue to implement a safety conscious work environment to the 
benefit of our workers and the public.
    Thank you. I would be pleased to answer any questions.
                                 ______
                                 
                 Biographical Sketch of Gene E. Runkle

    Mr. Runkle is the Senior Safety Advisor to the Director of the 
Office of Civilian Radioactive Waste Management and also the Program 
Manager for the Yucca Mountain Silicosis Screening Program. He holds a 
Master of Science degree in health physics with a specialty in internal 
dosimetry of inhaled radionuclides and has published and presented over 
50 technical papers on radiation protection, chemical safety, computer 
simulation modeling, quality assurance, and inhalation toxicology.
    Mr. Runkle has served as the Director for the Occupational Safety 
and Health Division for the DOE Albuquerque Operations Office with 
oversight of industrial hygiene, radiation protection, and occupational 
safety for the Nuclear Weapons Complex and the Waste Isolation Pilot 
Plant for geologic disposal of transuranic waste. Prior to his work 
with the Department, he worked with Sandia National Laboratories 
supporting probabilistic risk assessment analyses for the disposal of 
high level waste and spent fuel in geologic formations.

    Senator Reid. Thank you very much. Mr. Runkle, first with 
you, you have a very nice delivery and you appear to be a very 
nice man, but you just breezed through what has happened to 
these people. We acknowledge, as Mr. Taylor has indicated, 
you've set up a program now to take care of people, but what 
about the years of neglect of these people? You breezed through 
that like it doesn't exist. You say you set up a screening 
panel for these people so they can find out how sick they are, 
and Mr. Taylor said I think they should--their medical expenses 
should be paid.
    My personal feeling, and I have already said that in my 
opening statement, I think they deserve more than their medical 
treatment. I think the pain and suffering that they've gone 
through they deserve some compensation for this. And you also 
just glibly go over the fact that I didn't come up with this, 
Dr. Margaret Chu is concerned about falsification of records, 
and as we know, Inspector General hasn't reported back on the 
original problem that was pointed out by Mr. Griego.
    But I just have to say that I'm terribly disappointed in 
the Department of Energy. This isn't the first time. I voted 
against Abraham and I'm glad I voted against him. But you just 
breezed through this. You got people that are sick, two of them 
are right here. These people aren't feigning what they have. 
They didn't go out looking for someone, help me so I don't have 
to go to work anymore. And I think the Department of Energy has 
to get real about this and rather than brag about what they are 
doing now, talk about what they didn't do before.
    We have people, for example, the contractors aren't--it's 
my understanding this starts with the--I think that's a New 
Zealand or Australian company, something like that.
    Mr. Runkle. Nebraska.
    Senator Reid. No, I don't think so. Is it a Nebraska 
corporation? Well, Nebraska's not New Zealand, I'll tell you 
that. But anyway, I think that we just have to understand what 
has gone on in the past is something we have to recognize and 
not brag about you scored a touchdown. I think there's been 
some penalties that have been incurred in the past that we have 
to identify, and I just think that, I'm terribly disappointed 
in your testimony. I don't know what more I can say than to 
just say that.
    And I say this about Mr. Taylor. I know that you're a 
company man and you should be, and I appreciate your courage in 
coming forward, and I know, having heard from not you but other 
people, people make fun of you, as you know, for coming 
forward, you're not a company man, why are you doing this. This 
is the pressure on people out there. I don't know if his career 
is going to be affected or not. I'm sure it's not going to be 
helped by his being here, but I want you to know how much I 
appreciate your courage in coming here. And I didn't agree with 
all your testimony, but I think your being here speaks volumes.
    Mr. Runkle. Senator, if I could----
    Senator Reid. If I want you to answer a question, I'll ask 
you, okay?
    Doctor, if I could ask you some questions here. How are we 
going to determine what exposure, if any, these people have had 
to this thing that's even more serious than silica?
    Dr. Vogelzang. Erionite is--frankly, I don't have the data, 
so----
    Senator Reid. Is there a way of getting it though?
    Dr. Vogelzang. Well, I would defer to Dr. Weeks. I think if 
the ambient air sampling can be retrieved, there are experts 
who can identify these crystalline fibers. Theoretically, I 
guess, those samples should have been retained. Is that 
correct? So if they're retained, if they weren't adequately 
analyzed for erionite and mordenite, then they should be 
reexamined.
    Senator Reid. See, because I think we have an obligation to 
the hundreds and hundreds of people that work there, because if 
in fact we can go back and do some testing and find out maybe 
they weren't exposed to this, then that's a tremendous relief 
to people that they know that 20, 30, 40, 50 years from now 
when they're old men, mostly old men, some women, that they 
aren't going to get mesothelioma. Dr. Weeks.
    Dr. Weeks. I received some data from Mr. Runkle on erionite 
samples, and out of approximately I think 20 or so samples, 
most were negative and there were a couple that showed very low 
levels. But here's the problem. Erionite occurs in seams in the 
rock. So if you take a sample at any time, you may or may not. 
It's a hit or miss proposition whether or not you're actually 
operating in the seam where it is at the time, and most often 
you don't know whether you've been in the seam until you've 
gone through it, so it's ancient history at that point. So it's 
very difficult to get an estimate of what people were exposed 
to.
    Senator Reid. Doctor, if I could also ask you this, when we 
talk about these men here, experiences of sucking in large 
amounts of dust, some people sitting on the machines eating 
their lunch while they were working, it doesn't take, as I 
understand it, large gobs of this stuff to make you sick, it 
takes a tiny speck, is that right?
    Dr. Vogelzang. That's correct.
    Senator Reid. When I say a tiny speck, that's my language. 
Put it in medical terms.
    Dr. Vogelzang. Well, this is an ongoing debate in the legal 
community as to what is sufficient to cause mesothelioma. What 
I have basically said is it can take several months of 
exposure. I have patients whose exposure duration has been for 
2 or 3 months; for example, a summer student working in tearing 
down a boiler. That was his only exposure and 40 years later 
developed mesothelioma. So I believe that it can be from short, 
intense exposure, and I think Dr. Weeks is correct. These seams 
may not have been identified as the cutting devices were going 
through. It's just difficult.
    Senator Reid. And also, as I indicated earlier, there's two 
books that I read and I'm certainly far from an expert, but 
they're ``Fatal Deception'' and ``Libby, Montana''. We now have 
even a third generation of people getting sick, children, 
grandchildren, as a result of they believe hugging their dad 
when he came home or digging in his lunch bucket or washing 
clothes. That's certainly possible also, isn't it?
    Dr. Weeks. We call that para-occupational exposure. Most of 
the para-occupational exposure has been to wives, although 
certainly the court system has identified children of asbestos 
workers to be at substantial risk.
    Senator Reid. It's my understanding, Dr. Weeks, that the 
DOE, through its memorandum of understanding with the 
Occupational Safety and Health Administration was responsible 
for endorsing whatever the requirements were for people 
breathing decent air, is that right?
    Dr. Weeks. As I understand it, the memo was with the Mine 
Safety and Health Administration.
    Senator Reid. Okay, I'm sorry.
    Dr. Weeks. A similar agency.
    Senator Reid. And there was no program in place, good, bad 
or indifferent prior to 1996 that you've been able to 
determine?
    Dr. Weeks. The first memo I saw was dated 1986. I don't 
know what exactly resulted from that. According to the memo, 
there should have been monitoring of exposure and so on; but as 
a matter of fact, the only data that I have from MSHA is post-
1996.
    Senator Reid. In your review of these materials, did you 
see anything that some workers said that when they tried to 
wear some of these things that Mr. Taylor showed that they were 
criticized because it took much time and slowed down their 
work? Did you see any of that in your work, in your papers?
    Dr. Weeks. I've not encountered that.
    Senator Reid. Pardon me?
    Dr. Weeks. I've not encountered that.
    Senator Reid. I would ask Mr. Griego or Mr. Dean, did you 
hear of anyone or were you aware of criticism being made when 
people tried to wear these masks of people criticizing you 
because it slowed things down?
    Mr. Dean. No, sir.
    Senator Reid. Mr. Griego?
    Mr. Griego. Yes, but mainly it was management saying that 
things are slowing down.
    Senator Reid. Yes, and I am certainly aware of that. I 
perhaps didn't state that properly. In Dr. Chu's letter to my 
office, she said the Department believes approximately 1,200 to 
1,500 workers were exposed. Now, Mr. Runkle, you say that 2,400 
current and former workers have been contacted. This is twice 
as many as Dr. Chu has indicated in her letter. How come we now 
have you sending twice as many letters as she's noted?
    Mr. Runkle. When we originally estimated the 1,200 to 
1,500, that was the best estimate that we had at the time. That 
still stands as the number of people who were working 
underground from 1992 to present. However, in going back to 
some of the subcontractor units that had done work with the 
Yucca Mountain project, they provided the names of all of their 
employees, administration folks and others that were not 
working underground. To be conservative and to cover the entire 
picture, we sent letters to those people. We still have a few 
more that we're sending.
    Senator Reid. And also, I don't think anyone on the panel 
would disagree with this, it's not only the laborers, the 
operating engineers, the miners that were made sick. There were 
also people who were, for example, Mr. Griego, you were also 
behind, you weren't right up with the drilling machine, you 
were back because you had other work to do as I understand it.
    Mr. Griego. Well, part of our duties was to monitor the 
mining up front at the tunnel-boring machine head, so we were 
up there occasionally.
    Senator Reid. Okay. And how about you, Mr. Dean? Where were 
you? Were you close to the drilling equipment?
    Mr. Dean. Quite a bit of the time I was walking along the 
tunnel from the portal to the tunnel-boring machine. My job was 
to take care of the conveyor system, which also extended 
outside where the muck pile dropped off. My basic job was to 
cover that whole area, but I would be reassigned to different 
areas as they needed me. As operating engineer, I worked 
extensive in alcove 5 in the heater drift and I did quite a bit 
of dry drilling along the tunnel in various points along the 
tunnel.
    Senator Reid. There were also people who were non-union 
members who were working for the contractor who were so-called 
supervisors or bosses that were wandering in and out of that 
project all the time, is that right?
    Mr. Dean. Yes.
    Senator Reid. Thank you. Mr. Weeks, without the use of 
water, what other methods of controlling dust could have been 
used?
    Dr. Weeks. Well, water is really critical for dust control, 
and in my opinion it's really essential to keep the dust down. 
And I understand that there are reasons not to use water, but 
there are very compelling reasons that water should be used. 
Now, the alternative methods are to use ventilation, a lot of 
it, and to have some dust traps or things of that sort which 
can be used on drills, but it's difficult to use them on mining 
machines or the tunnel-boring machines.
    Senator Reid. Especially when it's 25 feet in diameter.
    Dr. Weeks. Exactly.
    Senator Reid. Finally, Dr. Weeks, do you know of people 
being exposed to silica in other ways than mining activities? I 
really don't know the answer to the question.
    Dr. Weeks. Yes. People are exposed in construction. Sand 
blasters have a very high exposure level. People in iron 
foundries are exposed to silica.
    Senator Reid. Yes, and you mentioned that, okay.
    Dr. Weeks. People in foundries are exposed to silica as 
well.
    Senator Reid. Mr. Taylor, would you describe maybe in a 
little more detail your background. What makes you so 
knowledgeable about the problems? And I guess, why are you 
willing to come forward today, because no one forced you. You 
weren't brought here by subpoena.
    Mr. Taylor. The main reason I'm willing to come forward 
today is because I don't ever want to see a contractor like we 
had before at Yucca Mountain. I feel that I owe that to the 
workers that are there now and future workers that may come 
forward. I just don't feel that we need that kind of outfit. We 
didn't need it then and that's the main reason I'm coming 
forward, because I don't want to ever see it happen again.
    I'm no one special. I'm just a field industrial hygienist. 
What makes me special is, I guess, I hung out, I've been there 
for 9 years. I've seen 47 other people come and go, and it was 
my job to not only point out the hazard but to get the hazard 
fixed, to get the right engineering controls, work practice 
controls; but I'm not going to sit here and tell you that I'm 
somebody special. I'm just an ordinary field industrial 
hygienist who does their job.
    Senator Reid. Well, we can draw our own conclusions on 
that. Let me just say this, that I have fond memories of your 
dad. That was a tough business there. He was in it for many 
years, as was my brother. I have fond memories working. I never 
got a good shift, I always worked night shift. No one else 
would work those there.
    Mr. Taylor. I think that's where I got my work ethic from.
    Senator Reid. Mr. Dean, you have indicated that your--in 
your testimony, your written testimony that you felt management 
was concerned about production and maybe too concerned to take 
time on sufficient ventilation. What--why do you say that? I 
guess my question is, why do you feel management put schedule 
and cost savings ahead of worker safety?
    Mr. Dean. Well, from the people that I have talked to in 
management, the walkers, the shifters who had traveled around, 
a lot of these people, they call them tramp miners because they 
go from one job to another, they didn't like working this type 
of government work. The money was good for them, but they were 
being watched too closely, but their attitude certainly was, I 
remember the bosses, the shifters, walkers, they would say, 
let's drive this tunnel. They wanted to make some hole.
    They would get in trouble if a whole shift went by and 
there wasn't any production. If the machine would break down, 
everybody would group up and hurry to get it fixed. If you 
could hold it together with a piece of string on the night 
shift just to keep going, that's what we would do. We'd keep 
that machine going and they'd shut down on day shift to fix it. 
That was the big focus was on production and not safety.
    Senator Reid. You said that you as a worker there like the 
rest of the workers trusted the DOE to keep the workplace safe. 
Is that true?
    Mr. Dean. Yes, I did, absolutely.
    Senator Reid. You thought that the dust, if it were bad 
they would have told you about it.
    Mr. Dean. Yes.
    Senator Reid. Dr. Vogelzang, I'm sorry, I'm not the first 
one who's had a little trouble hearing but I'll get used to it, 
you heard, and I'm certain this is no medical diagnosis here, 
but you've heard what are the possible diagnosis that Mr. Dean 
has. He mentioned what they were. Are any of those compatible 
with silicosis and/or the other problem?
    Dr. Vogelzang. Yeah, I'm not a pulmonologist, but certainly 
the occupational lung diseases that exist. I was just looking 
at one of the chapters from one of the general medical 
textbooks, and this occurs in pottery workers and sandblasters, 
glass makers, foundry workers, silica miners, and stone 
workers. I mean, it's a very common thing to hear a story that 
people were exposed and then later on developed decreases in 
their pulmonary function tests and have X-ray abnormalities. So 
it's----
    Senator Reid. As Dr. Weeks mentioned, it's hard to 
comprehend that with a project that is so modern, with a borer, 
a big drill that will drill a hole as much as 150 feet in one 
day through this rock, modern technology at its zenith, that 
we're now trying to figure out why they let a disease that goes 
back centuries occur, so preventable. As you indicated, Dr. 
Weeks, silicosis is preventable, is that not right?
    Dr. Weeks. Yes, it is, that's right.
    Senator Reid. And I think in my mind you painted a very 
vivid picture there in some of your comments that here we have 
a brand new project but we're still talking about something 
that should have been known 100 years ago, and we know because 
of some of the--from what a layman, Mr. Griego came up with, we 
know, he knows, but they knew about this before the project 
ever started, 10 years before the drilling actually started, 
and nothing was done about it. That's a real difficult 
situation.
    Mr. Griego. Senator, may I address the question about 
whether this project was--Gene Griego.
    Senator Reid. Oh, I'm sorry. I couldn't see you, Gene. 
Please go forward.
    Mr. Griego. I'd like to address the question about whether 
this project was a schedule-driven project.
    Senator Reid. Please answer.
    Mr. Griego. I got an independent management financial 
review of Yucca Mountain done by the Peterson Consulting 
Company. This report came out July 15, 1995, and I'll just read 
a short sentence of one of their findings: ``The review team is 
concerned with the program approach, and an attempt to meet the 
1988 technical and site solubility evaluation milestone will 
result in a de facto schedule-driven project. Furthermore, an 
aggressive schedule coupled with reduced funding levels may 
encourage risk taking to eliminate or inappropriately postpone 
the necessary level of scientific investigation.''
    Senator Reid. Wow.
    Mr. Griego. I'd like to enter this document into the 
record.
    Senator Reid. Yes. We'll make sure that takes place.
    [Clerk's Note.--The information was not available at the 
time of publication.]
    Senator Reid. Well--and Mr. Griego is the one that, rather 
than you, Mr. Dean, that worked behind the tunnel-drilling 
machine during measurements of the location of drilling. He 
said that miners who drove the drilling machine were exposed to 
much more dust than he was.
    Mr. Griego. That's in the 1996 monitoring report, Senator.
    Senator Reid. I'm grateful to every one of you here for 
coming and I'm sorry if, Mr. Runkle, I was rude to you. I don't 
mean to be, but I have such a terrible distaste in my mouth for 
what the DOE has done here. This is a--and you're not 
personally responsible and I understand that, you have a job to 
do and you came here to put the best light on it you can and I 
understand that.
    Let me close by saying that we have established here 
without any question that silicosis is preventable. We've 
established without any question that the asbestos-like fibers 
in this mountain that cause even a worse disease than silicosis 
should have been monitored, should have better records. It 
hasn't been done.
    Silicosis as a hazard has been known for five centuries at 
least. DOE knew that it was in the area. As I've said before, 
when I first learned about this--because of my dad I've always 
been very aware of silicosis--I thought all kids' dads coughed 
like my dad at night. I can remember, and I've also said this 
on occasion or two before, there was a guy in Searchlight, his 
name was Monk, I don't what his name was, Monk. In the 
summertime when we would be outside a lot, you could hear him 
coughing all over town. You could hear him coughing. It was 
something I can't imitate because it's not a real cough. It was 
just a terrible sound that this man did before he died.
    So I've watched this closely, and there was a man, his name 
was McFarlane, wrote a number of books on Nye County, the Nye 
County commissioners hired him to do some historical work, and 
one of the things he talked about in his book is after Tonopah 
had been online, and Tonopah is just a short ways from where 
Yucca Mountain is, had been online for a while, they would not 
hire Americans, they only hired foreigners, because they knew 
they'd kill them in the mines. The silicosis was so bad in 
Tonopah that this history book recently written, that they--and 
the work that he did found that they wouldn't hire Americans, 
only foreigners, because I guess they didn't care if they died.
    DOE ignored the threat for years and knowingly exposed 
thousands of workers to this. We can blame it on the 
contractors, and it certainly is their fault, but they were 
under the auspices of the Department of Energy. Many of these 
workers are now sick and dying. Many more will get sick, and 
think of the pain, emotional trauma that these people are going 
through, who aren't sick yet. Are they going to get sick? Are 
they really sick? The 2,400 notices you've sent out, some of 
them are like most of us, they don't want to know. They're not 
going to return that stuff. They're feeling okay now and maybe 
they smoke too much or maybe that's why they're breathing too 
hard and they're not going to go forward and find out. That's 
what's going to happen to a lot of them.
    As a legislator in Congress, I'm going to do everything I 
can to see what we can do to move forward on this. What has 
taken place here is just absolutely wrong. This record will be 
open for 7 days, and if there are other questions that I come 
up with, I'll submit these to you and if you would be kind 
enough to get the answers back as quickly as possible.
    I'd like to also acknowledge my staff, who has done a 
wonderful job helping me prepare for this. Drew Willison has 
been with me for a long time now and he's my person on the 
Subcommittee of Energy and Water and does a wonderful job. On 
my Senate staff, Sarah Mills, she's done a wonderful job doing 
the writing up, getting this ready for us.
    I hope that those people who have been watching and in the 
sound of my voice understand that our concerns about what has 
taken place at Yucca Mountain is not some knee-jerk reaction, 
that we're just making all this up. This is an indication of 
how the Department of Energy has treated the State of Nevada 
and has treated the people that work at Yucca Mountain. They're 
just pawns. They're there for the big utilities so the big 
utilities will leave them alone and get this hole dug in the 
mountain so that they can get this poisonous substance out of 
their back yard into our back yard and haul it sometimes as 
much as 3,000 miles along the highways and railways of this 
country to bring it here.

                         CONCLUSION OF HEARING

    I predict it will be never be done. After September 11, how 
are we going to allow the most poisonous substance known to man 
to be hauled by our schools, our businesses, our homes, and our 
churches. I just don't think it's going to happen. I don't 
think the public will stand for this. But in the meantime, 
we're spending billions of dollars to satisfy the utilities, 
and as a conspiratorial party to this has been the Department 
of Energy now for many years.
    This hearing is now in recess.
    [Whereupon, at 11:30 a.m., Monday, March 15, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


</pre></body></html>
